<html>
<title> - THE ROLE OF THE DEPARTMENT OF DEFENSE IN HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-408]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-408
 
       THE ROLE OF THE DEPARTMENT OF DEFENSE IN HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2001

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
78-817 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

       The Role of the Department of Defense in Homeland Security

                            october 25, 2001

                                                                   Page

White, Hon. Thomas E., Secretary of the Army and Interim 
  Department of Defense Executive Agent for Homeland Security....     6
Pace, Gen. Peter, USMC, Vice Chairman, Joint Chiefs of Staff.....     8
Eberhart, Gen. Ralph E., USAF, Commander in Chief, United States 
  Space Command/North American Aerospace Defense Command.........    10
Kernan, Gen. William F., USA, Commander in Chief, United States 
  Joint Forces Command...........................................    12

                                 (iii)


       THE ROLE OF THE DEPARTMENT OF DEFENSE IN HOMELAND SECURITY

                              ----------                              


                       THURSDAY, OCTOBER 25, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, 
Landrieu, Reed, Akaka, Carnahan, Dayton, Warner, Inhofe, 
Santorum, Roberts, Allard, Hutchinson, Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Jeremy L. 
Hekhuis, professional staff member; Maren Leed, professional 
staff member; Peter K. Levine, general counsel; and Michael J. 
McCord, professional staff member.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Edward H. Edens IV, professional 
staff member; William C. Greenwalt, professional staff member; 
Gary M. Hall, professional staff member; Carolyn M. Hanna, 
professional staff member; George W. Lauffer, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Joseph T. Sixeas, professional staff member; Cord A. Sterling, 
professional staff member; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Dara R. Alpert, Jennifer L. 
Naccari, and Nicholas W. West.
    Committee members' assistants present: Craig Bury, 
assistant to Senator Byrd; Andrew Vanlandingham, assistant to 
Senator Cleland; Marshall A. Hevron and Jeffrey S. Wiener, 
assistants to Senator Landrieu; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Neal 
Orringer, assistant to Senator Carnahan; Brady King, assistant 
to Senator Dayton; Wayne Glass, assistant to Senator Bingaman; 
John A. Bonsell, assistant to Senator Inhofe; George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Douglas Flanders, assistant to 
Senator Allard; James P. Dohoney, Jr., assistant to Senator 
Hutchinson; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; and Derek Mauer, 
assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. The committee 
meets today to receive testimony on the role of the Department 
of Defense in homeland security.
    The committee welcomes Thomas White, Secretary of the Army, 
who has been designated by Secretary of Defense Rumsfeld as the 
Interim Executive Agent for Homeland Security. Welcome also 
Vice Chairman of the Joint Chiefs of Staff, Gen. Peter Pace, 
joined by our two military leaders with direct responsibility 
for military contributions to homeland security, Gen. William 
Kernan, Commander in Chief, Joint Forces Command, which 
includes the Joint Task Force-Civil Support that coordinates 
military assistance to civilian authorities in the event of a 
major incident or attack on U.S. soil, and Commander in Chief, 
U.S. Space Command, Gen. Ralph Eberhart, who joins us in his 
capacity as Commander in Chief of NORAD, the North American 
Aerospace Defense Command. We welcome both of you.
    On behalf of the entire committee, let me welcome each of 
you to the committee for a very important hearing. We had 
planned to hold this hearing in the larger central hearing room 
in the Hart Senate Office Building, but that building remains 
closed because of anthrax contamination, so our very setting 
today underscores the new threats facing the United States.
    This committee has focused on these threats for several 
years. In 1998, Senator Warner created with my support the 
Emerging Threats and Capabilities Subcommittee, chaired first 
by Senator Roberts and now by Senator Landrieu. At extensive 
hearings, the Emerging Threats and Capabilities Subcommittee 
has focused on improving the ability of the Armed Forces to 
meet nontraditional threats including nonterrorism and 
unconventional means of delivering weapons of mass destruction.
    In fact, based partly on those hearings, a Combatting 
Terrorism Initiative to improve the ability of U.S. forces to 
deter and defend against terrorism was approved by this 
committee in the National Defense Authorization Bill, which we 
voted to approve prior to the horrific terrorist attacks of 
September 11. We had acted in that way prior to September 11, 
but the attacks on New York and Washington have prompted an 
unprecedented military role in ensuring the security of the 
United States and the American people.
    The extraordinary has become the ordinary. In their State 
capacity, National Guardsmen stand guard at airports throughout 
the Nation. U.S. military aircraft, assisted by NATO AWACS 
surveillance aircraft, routinely patrol American skies. U.S. 
warships patrol our shores. These aircraft and warships are 
prepared to carry out a once unthinkable mission, if approved 
by the chain of command: to shoot down hijacked U.S. civilian 
airliners that threaten Americans on the ground.
    These are extraordinary responses to an extraordinary 
threat, and they require a reexamination of the proper role of 
the U.S. Armed Forces in helping to ensure the security of the 
American people. That reexamination and reorganization has 
already begun. On September 30, the Department of Defense 
released its report on the Quadrennial Defense Review, which 
elevated the mission of homeland defense to the Department's 
``highest priority.''
    On October 2, the Secretary of Defense designated Army 
Secretary White as the Interim Department of Defense Executive 
Agent for Homeland Security. On October 8, the President 
designated Pennsylvania Governor Tom Ridge as the new Assistant 
to the President for Homeland Security. On October 12, the 
President designated Secretary White as the Acting Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict.
    The Commander in Chief of NORAD, General Eberhart, now 
exercises operational control of military aircraft over the 
United States, to include their mission of flying combat air 
patrols over New York, Washington, and other cities. Under 
General Kernan, the Joint Task Force-Civil Support stands ready 
to coordinate military assistance to civilian authorities in 
the event of a major incident or attack on U.S. soil.
    Overarching all of these efforts is the Posse Comitatus Act 
of 1878, a criminal statute that prescribes the limited 
circumstances under which the United States Armed Forces can be 
used to enforce the domestic law. That act states: ``Whoever, 
except in cases and under circumstances expressly authorized by 
the Constitution or act of Congress, wilfully uses any part of 
the Army or the Air Force as a posse comitatus or otherwise to 
execute the laws, shall be fined under this title or imprisoned 
not more than 2 years, or both.'' It is because this act does 
not apply to National Guardsmen in their State status that 
guardsmen are now being employed at airports.
    This new environment requires careful consideration of some 
important questions by the committee. Among them are the 
following:
    What exactly is the definition of homeland security, and to 
what extent should the Department of Defense be involved in 
homeland security?
    How does the Department of Defense relate to the Office of 
the Assistant to the President for Homeland Security, Tom 
Ridge's new office?
    Is the Department of Defense organized properly to deal 
with the many aspects of homeland security? For instance, is 
there a need for a new Commander in Chief, or CINC, for 
homeland security to coordinate the various military 
contributions to homeland security? If so, how would that 
command interact with NORAD and the Joint Forces Command? Is it 
appropriate for a Service Secretary to be in the chain of 
command?
    Should the Posse Comitatus Act be revised or repealed? If 
so, do we want the Armed Forces enforcing the law, as would be 
required in an insurrection? What impact would training our 
Armed Forces to make arrests, seize property, and preserve 
evidence have on their capabilities and readiness to accomplish 
their warfighting mission?
    Should every State have a weapons of mass destruction civil 
support team, such as the 32 already authorized and 27 already 
established, to assist civilian authorities in responding to an 
incident or attack on U.S. soil involving weapons of mass 
destruction?
    While there has been a tendency in the past to use the 
Armed Forces to support civilian authorities in such events, is 
that still realistic, given the Armed Forces involvement in a 
war that is likely to last for an extended period of time?
    Secretary White, we know that you and your colleagues do 
not have all the answers to all those and other questions yet. 
We are only 6 weeks removed from the attacks of September 11. 
We are 19 days into the military campaign against the Al Qaeda 
terrorist network and their Taliban protectors. But in times of 
national emergency, few questions are as important as the 
proper role of the U.S. Armed Forces in defending the Nation 
and the American people, especially if that mission takes them 
not only overseas, but to the skies and to the streets of 
America itself. We look forward to hearing the options that you 
are now considering, or the decisions that you have already 
made, to address this new and evolving mission.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, your 
excellent opening statement embraced much of the text that I 
have here, and so I will ask unanimous consent to put mine in 
the record.
    Chairman Levin. It will be made a part of the record.
    Senator Warner. There are several comments I would like to 
make. I would like to read two sentences: ``The protection of 
America itself will assume a high priority in a new century. 
Once a strategic afterthought, homeland defense has become an 
urgent duty.''
    That was incorporated in a speech given by President Bush, 
then Candidate Bush, at The Citadel University in South 
Carolina in September 1999. We are fortunate that our President 
had the presence of mind and the foresight to look into the 
future to begin to prepare America for the exact task that is 
before us.
    Second, our committee, as my distinguished chairman 
acknowledged, did establish a subcommittee some 3 years ago 
when I was privileged to occupy that chair, but it was a joint 
action by all Senators around this committee. We laid a solid 
foundation in those several years, under Senator Roberts and 
Senator Bingaman, and other members of that subcommittee. The 
very teams you referred to, the civil defense teams, previously 
known as Rapid Assessment Initial Detection (RAID) teams, were 
an outgrowth of the work of the Department and that 
subcommittee.
    Much has to be done now, and it has been entrusted to you 
gentlemen and your subordinates. I cannot recall, really in the 
history of the United States, and I have been privileged to 
live longer than just about everybody in this room, when a 
greater challenge has been posed to a man or woman, whether 
they be President, or an ordinary citizen, to meet this 
challenge and keep America strong and going.
    Earlier in this very room, the Subcommittee on Emerging 
Threats and Capabilities, under the chairmanship of Senator 
Landrieu, held a hearing with the former chairman of this 
committee, Sam Nunn, on the potential threat of smallpox, a 
disease that was eradicated when I was a young man. Yesterday 
the chairman and I had the privilege of sitting with the 
President of the United States, the Vice President, members of 
his Cabinet, and several other Members of Congress as we worked 
with the new Cabinet officer, Governor Ridge, who you referred 
to.
    I just mention those things so that those citizens 
following this hearing should understand that there are no 
politics in this battle, in this war we are waging, whether it 
is in Afghanistan by the superb leadership of the men and women 
of the Armed Forces or here at home. We are all in it together, 
and we cannot allow our lives not to go forward because of our 
children and future generations, and because so much of the 
world depends upon the United States of America to remain 
strong and free, and to lead in the cause of freedom.
    You are here today to outline your initiatives with regard 
to following through on the President's speech given 13 months 
ago, and the foundations that the Secretary and Deputy 
Secretary of Defense have laid down and charged you with. We 
wish you well, gentlemen, and generations will look back 
hopefully grateful to your contributions and those of your 
subordinates.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman, and thank you for holding this important 
hearing on the Defense Department's role in homeland security. I join 
you in welcoming our witnesses today.
    We meet today as our Nation remains under attack, and regrettably, 
will remain under attack from terrorists who have used unimaginable 
threats, and as our Armed Forces are engaged in operations against 
those responsible for the September 11 attacks. Our thoughts and 
prayers are with those who have suffered as a result of these 
continuing attacks on our Nation, and with the men and women of the 
Armed Forces who are in harm's way, defending our freedom.
    I commend our President and members of his administration for the 
actions they have taken to respond to the attacks of September 11. It 
is important to note, however, that President Bush identified homeland 
security as his highest priority long before the heinous attacks of 
September 11. In speeches at The Citadel in September 1999 and at the 
National Defense University in May 2001, President Bush called for a 
primary emphasis on homeland security and the transformation of our 
Armed Forces to be able to deter, detect, and defeat the very different 
threats we face in the 21st century. I want to highlight a quote from 
then-Governor Bush's Citadel speech of September 23, 1999:

        ``The protection of America itself will assume a high priority 
        in a new century. Once a strategic afterthought, homeland 
        defense has become an urgent duty.''

    We have experienced a great tragedy in our Nation and a blow to our 
sense of security and freedom. We do not know from where the next 
challenge to our freedom, security and vital national interests will 
come, but of one thing we can be sure--it will come, and we must be 
ready to confront the full spectrum of threats the enemies of freedom 
may direct toward our country.
    I think it is critically important that we all recognize that we 
must not focus only on this most recent terrorist attack. Our review of 
homeland defense and homeland security must look at all aspects of our 
Nation's vulnerability. Because of the proliferation of weapons of mass 
destruction around the world, and the related proliferation of 
ballistic missile technologies to deliver such weapons, we must include 
ballistic missile defense in any concept of homeland security.
    These recent attacks on our Nation show, with complete clarity, 
that our adversaries will use any means they have at their disposal to 
attack the United States and indiscriminately kill American citizens. 
They have now killed thousands with hijacked airplanes. This form of 
attack took the world by surprise. How will the terrorists, or any 
other potential adversaries, strike next? We must be prepared.
    I also raise another issue--a controversial issue--and would 
welcome the thoughts of our witnesses. On October 11, I wrote to 
Secretary Rumsfeld asking that he re-examine the long-standing Posse 
Comitatus doctrine in light of the September 11 attacks. This 
doctrine--which prohibits the involvement of the Armed Forces in 
civilian law enforcement--has served America well since its adoption in 
1878. But, in light of recent events and the unique capabilities that 
the Armed Forces can bring to emergency situations, is it not time to 
re-examine this doctrine?
    I thank all of our witnesses for your extraordinary service to our 
Nation, and for your testimony today. I cannot overstate the importance 
and urgency of this subject we will discuss today--a collective effort 
to understand the role of our defense structure in protecting our 
homeland, as well as protecting our vital interests around the world.
    Thank you.

    Chairman Levin. Thank you, Senator Warner. I have never 
seen a Nation more united than we are in the war against 
terrorism. I have never seen Congress as united as they are in 
this war. A huge burden has been placed on you, gentlemen, and 
we know you are up to it, but we are there to support you in 
every possible way that we can.
    I want to just take 30 seconds for a scheduling note which 
is important to all of us, because it is so difficult for us to 
rearrange schedules.
    Tomorrow morning we will meet in S-407 of the Capitol at 
9:30 a.m. to receive an update briefing from the Office of the 
Secretary of Defense and JCS officials on the ongoing military 
operations in Afghanistan. Staff attendance will again be 
restricted because of the classification level.
    This morning, at the conclusion of our conference meeting 
with the House, Chairman Stump and I agreed that we would make 
completing our conference our highest priority for next week. 
Members of the committee therefore can expect full conference 
meetings with the House throughout next week, starting on 
Wednesday morning. We are going to have a back-to-back 
conference on Wednesday, and then we will continue on Thursday, 
hopefully finish on Thursday, if not Friday, and of course we 
will get the exact details of our schedule to the members of 
this committee as soon as possible.
    Thank you very much.
    Senator Inhofe. Mr. Chairman, does that mean we are not 
going to be doing the late Tuesday afternoon meeting we had 
previously discussed?
    Chairman Levin. That is correct.
    Senator Inhofe. Thank you.
    Chairman Levin. Secretary White.

 STATEMENT OF HON. THOMAS E. WHITE, SECRETARY OF THE ARMY AND 
  INTERIM DEPARTMENT OF DEFENSE EXECUTIVE AGENT FOR HOMELAND 
                            SECURITY

    Secretary White. Mr. Chairman, Senator Warner, 
distinguished members of the committee, I appreciate this 
opportunity to appear before you in my role as Interim 
Department of Defense Executive Agent for Homeland Security, 
along with my colleagues who you have already recognized: 
General Pace, Vice Chairman of the Joint Chiefs of Staff; 
General Eberhart, Commander in Chief, North American Aerospace 
Defense Command; and General Kernan, Commander in Chief, U.S. 
Forces Command.
    Mr. Chairman, I would like to make a brief opening 
statement on behalf of all of us, and then respond to any 
questions the committee may have, if that is acceptable to you.
    Before I begin, I would like to make one thing very clear. 
The 2001 Quadrennial Defense Review published last month 
restores the defense of the United States as the Department's 
primary mission. Put another way, homeland security is the 
number 1 job for the United States military, and it has our 
full attention. I would like to assure the members of the 
committee and the American people that we will spare no effort 
in our endeavor to protect this Nation from aggression.
    The attacks of 11 September and since prove beyond doubt 
that terrorism is a permanent part of our future. Our 
traditional response to terrorism at the Department of Defense 
level has been to organize around crisis management and 
consequence management functions, with the former being an 
activity managed by the Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict, while the latter 
is principally accommodated by the Director of Military Support 
within the Department of the Army.
    In my view, that construct no longer works. It is far more 
useful to view homeland security as an overarching effort that 
includes two simultaneous and mutually supporting functions. 
First is homeland defense, a DOD-led task involving protection 
of the United States in areas where we in the Department of 
Defense have unique military capabilities such as air defense. 
The fighter aircraft flying combat air patrols over Washington 
and New York City under the operational command of General 
Eberhart are a prime example of the homeland defense mission.
    Second is civil support, where DOD provides assistance to a 
lead Federal agency, which can range from the FBI, for domestic 
counterterrorism tasks, to Health and Human Services, for 
biological attacks. Key to this civil support effort is a 
layered approach, beginning with local and State first-
responders, progressing through deployment of State-controlled 
National Guard units, and then finally to application of 
Federal assets, including unique DOD capabilities on an 
exception basis.
    Above all, homeland security demands a comprehensive 
approach to accommodate evolving threats and the reality of 
finite resources. Properly focusing on this complex mission and 
providing the coordination necessary for joint and interagency 
integration requires, in my opinion, a reorganization of DOD 
efforts. From my perspective, there are three fundamental tasks 
that must be accomplished if we are to be successful.
    First, DOD must consolidate its efforts in homeland defense 
into a single staff organization. This will enhance the 
coordination of policy planning and resource allocation 
responsibilities that relate to homeland security. By focusing 
our efforts, we can avoid gaps and duplication in capabilities 
while dramatically improving the quality of our planning and 
responsiveness.
    Second, we must develop operational arrangements for the 
future. Currently, the military responsibilities for homeland 
security are assigned to several of the Unified Commanders on 
an interim basis, pending revision of the Unified Command Plan, 
and that, of course, includes North American Air Defense 
Command, Aerospace Defense Command and Air Defense Space 
Command, and Cyber and Info, Land and Maritime with Joint 
Forces Command.
    I will defer operational details to other members of the 
panel, but I want to emphasize a key point. As we look to the 
future, apportionment of forces must be balanced between 
meeting warfighting requirements abroad and the need to defend 
America at home, and this is a concurrent activity, obviously, 
from what we are doing today. This is a threshold event with, 
in my opinion, profound implications for the military.
    As for the last task, we must improve the interagency 
coordination process to guarantee timely and efficient 
cooperation among the many Federal, state, and local 
organizations that have or share homeland security 
responsibilities. I have already met with Governor Ridge, as 
you have stated, the President's Special Assistant for Homeland 
Security. I have assured him the Department will fully assist 
his office in the execution of his mission.
    While doing so, DOD will continue to focus on its broad and 
critical responsibilities: defending our Nation against attacks 
of war and terrorism, providing the capacity to respond to 
chemical, biological, radiological, nuclear, and high-yield 
explosive events of so-called weapons of mass destruction, 
whether intentional or unintentional, and supporting lead 
agencies in the event of natural disasters.
    The victims of a disastrous event do not necessarily 
distinguish between whether the event was a result of actions 
of non-State terrorists or State actors engaging in a war, or 
just an unfortunate accident. What matters to the American 
people is the knowledge that our homeland is secure against any 
and all threats. We in the Department of Defense stand ready to 
do our part to meet that challenge.
    Thank you, Mr. Chairman, for this invitation. This 
concludes my statement. I look forward to the committee's 
questions, along with my colleagues. Thank you, sir.
    Chairman Levin. General Pace.

STATEMENT OF GEN. PETER PACE, USMC, VICE CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Pace. Mr. Chairman, thank you very much, members of 
the committee. I do deeply appreciate the opportunity to appear 
before you again today and to have one more opportunity to say 
thank you for the very strong, sustained bipartisan support of 
this committee for all the men and women in your Armed Forces.
    If I may, Mr. Chairman, I would like to have my written 
statement entered into the record and save the time to answer 
your questions.
    [The prepared statement of General Pace follows:]

              Prepared Statement by Gen. Peter Pace, USMC

                              INTRODUCTION

    On behalf of General Myers, I want to thank you for the opportunity 
to appear before this committee to discuss the important topic of 
Homeland Security. It is an honor to be here. I should also thank 
Congress, and especially the members of this committee, for your 
enduring and significant support of America's Armed Forces. Your deep 
commitment to our great men and women in uniform, who today are waging 
war against international terrorist organizations, is very much 
appreciated.
    Of course, it was the tragic events of September 11 that led to 
this hearing. So let me also add, on behalf of General Myers and the 
Joint Chiefs, that our hearts and prayers go out to the thousands of 
innocent Americans and other victims who lost their lives or were 
injured that day, as well as to their families, friends, and 
colleagues.

                              SEPTEMBER 11

    Six weeks ago the terrorist attacks against the Pentagon and the 
World Trade Center shocked the world. Today, we who serve in uniform 
join with the rest of America, and with our friends and allies around 
the world, in a multinational effort to take down the network of 
terrorist organizations responsible for these acts. No one should 
mistake our unified purpose and strength of our resolve. We did not ask 
for this fight, but we will win it. The dastardly act of terrorism 
against America will in no way diminish our commitments to our allies, 
and it will in no way prevent our military from performing its duties 
and responsibilities to defend the United States' interests around the 
world.
    As President Bush and Secretary Rumsfeld have frequently noted, 
this is a new type of war--one that will require an unprecedented 
pooling of all elements of our national power, at all levels of 
government. It is also a war that will require us to work in close 
concert with our friends and allies to maximize our effectiveness.
    Our adversaries, unable to confront or compete with the United 
States militarily, continue to spend millions of dollars each year on 
terrorist organizations that target U.S. citizens, property, and 
interests. These terrorists are indiscriminate killers who attack where 
and when their victims are most vulnerable. They seek to find and 
exploit perceived weaknesses, striking at us with what we call 
``asymmetric means'' to achieve their goals. The September 11 attacks 
were the most recent example of this strategy. Attacks such as these 
further reinforce the necessity of improving our ability to protect our 
homeland and the American people from future attacks.

                           HOMELAND SECURITY

    Defending the homeland has always been a vital mission for the 
military. Our traditional national military strategy has been to defend 
the homeland by engaging threats beyond our Nation's shores; however, 
the September 11 attacks have graphically illustrated the need to do 
more to meet this threat. We must now focus on improving our levels of 
security here at home, with appropriate deference to our 
constitutionally guaranteed freedoms, while simultaneously continuing 
our strategy of detecting and defeating threats outside our Nation's 
borders.
    This new emphasis is reflected in the 2001 Quadrennial Defense 
Review (QDR) Report, which states: ``The highest priority of the U.S. 
military is to defend the Nation from all enemies.'' The report also 
states that ``The U.S. will maintain sufficient military forces to 
protect U.S. domestic population, its territory, and its critical 
infrastructure . . .''
    Homeland security also involves providing appropriate military 
assistance to the responsible civilian authorities to mitigate the 
consequences of such attacks. So we divide Homeland Security into two 
major subsets, Homeland Defense and Civil Support.
    The Homeland Defense piece of Homeland Security is about 
warfighting missions, with the military clearly in the lead. These 
missions include the defense of maritime, land, and aero-space 
approaches to the United States. In the future, this will include 
defense against ballistic missiles.
    Today, your Armed Forces are conducting many of these missions. For 
example, we have over 100 military aircraft involved in fighter Combat 
Air Patrols (CAP) and on strip alert for increased air defense; 
approximately 18,000 National Guard personnel are stationed in 
airports, port facilities, and other critical infrastructure sites 
reassuring our public, deterring future attacks, and providing 
temporary increased security capabilities to other lead Federal 
agencies; and finally, the U.S. Coast Guard has established over 90 
coastal Security Zones on both the east and west coasts, using 60 
cutters and patrol boats.
    The Civil Support piece of Homeland Security is where the military 
provides support to other lead Federal agencies to help manage the 
consequences of a Weapons of Mass Destruction (WMD) event, assist in 
disaster relief efforts, and provide some counter-terrorism support. 
The Department of Defense also provides unique capabilities to respond 
to the effects of chemical, biological, radiological, nuclear and high 
explosive weapons of mass destruction, complementing Federal, state and 
local first responder capabilities.
    Even before the horrific events of September 11, we had been 
exploring organizational improvements to support Homeland Security. For 
example, on 1 October 1999, we established Joint Task Force-Civil 
Support (JTF-CS), an organization that is now fully operational under 
the command of General William Kernan, Commander in Chief, United 
States Joint Forces Command. This standing JTF currently has a major 
role in the development of training and doctrine associated with 
providing support to civilian first-responders for a WMD event. JTF-CS 
also provides expertise and command and control to those DOD assets 
deployed in support of civil authorities.
    Additionally, on 1 November 1998 we created another standing task 
force to defend the Defense Information Infrastructure against cyber-
aggression. Our Task Force-Computer Network Operations currently 
operates under the command of General Ralph Eberhart, Commander in 
Chief of the United States Space Command.
    In the wake of the attack, we have placed an even greater emphasis 
on these missions while continuing to examine other steps to more 
effectively respond to emerging threats. We are also in the process of 
carefully reviewing our Unified Command Plan (UCP). Currently a number 
of Combatant Commanders are assigned different roles within our 
homeland defense mission. Consequently, we are looking at ways of 
eliminating any seams that may exist between the various organizations 
and agencies involved in the Homeland Security efforts. We will be 
reviewing the UCP with an eye toward developing a seamless command and 
control of all DOD assets--active, reserve, guard, and civilians--
required to execute our Homeland Security responsibilities.
    This past July, we established a new Homeland Security Division 
within the Strategy and Policy Directorate (J5) of the Joint Staff. 
This new division will serve as the focal point for the development and 
coordination of the military strategy and policy aspects of Homeland 
Security. Additionally, we recently established a General Officer 
Steering Committee to facilitate the coordination of Homeland Security 
issues.
    Of course Homeland Security is not a DOD-only effort. An effective 
Homeland Security posture requires that multiple Federal departments, 
agencies, state and local governments, and the military all work 
together as a team. Therefore, anything we do within DOD must be 
synchronized as part of a comprehensive interagency effort. DOD is 
currently represented in key interagency-working groups, identifying 
and responding to emerging homeland security requirements.
    Indeed, an overall Homeland Security strategy of preventing and 
deterring future attacks, while simultaneously protecting the American 
people and our critical infrastructure, demands improved communication 
and sharing of information across the government. It also demands a 
laser-like focus and unity of effort, and this is where Governor Ridge 
and his team at the Office of Homeland Security will play such a 
critical role.

                               CONCLUSION

    The Chairman, the Joint Chiefs, and I recognize that much work 
remains to be done. Together, with Secretary White, DOD's new Executive 
Agent for Homeland Security, we will get the job done. For inspiration 
we need look no further than the mountain of rubble in New York City or 
the gaping hole in the Pentagon where so many from our DOD family were 
suddenly taken from us. We will continue to focus our attention on 
efforts to protect our homeland, our people, and our national 
interests.

    Chairman Levin. Thank you very much. General Eberhart, do 
you have a comment?

STATEMENT OF GEN. RALPH E. EBERHART, USAF, COMMANDER IN CHIEF, 
 UNITED STATES SPACE COMMAND/NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    General Eberhart. Sir, in the interest of time, I will 
submit my statement for the record also, and I add my thanks to 
those of the Vice Chairman for your continued support over the 
years, and more so for your support in the upcoming weeks and 
months as we challenge this task ahead of us.
    [The prepared statement of General Eberhart follows:]

           Prepared Statement by Gen. Ralph E. Eberhart, USAF

    Senator Levin, Senator Warner and members of the committee: Though 
the circumstances that led to this hearing are tragic, it is an honor 
to appear before you to represent the outstanding men and women of 
North American Aerospace Defense Command (NORAD). Our hearts and 
prayers go out to those great American heroes who lost their lives or 
were injured on September 11, 2001, as well as their families and 
friends.
    Our combined U.S. and Canadian response to the unprecedented 
terrorist attacks on the World Trade Center and the Pentagon was a 
tribute to the professionalism of our people. We are proud to be part 
of the national security team now focused on defeating terrorism.

                                MISSIONS

    For 43 years NORAD adapted to the changing threats--transitioning 
from an initial ``air'' defense orientation to a broader aerospace 
dimension--one that provides surveillance and warning of ballistic 
missile attacks and space events. The unprecedented attacks on 11 
September 2001 were a reminder to our Nation of the need to detect, 
validate and warn of hostile aircraft or missile attack against North 
America. Proper attack assessment ensures the U.S. National Command 
Authorities and the Prime Minister of Canada can take appropriate 
action in response to an attack. Clearly, our ability to provide 
surveillance and control of U.S. and Canadian airspace remains vital 
and constitutes a critical component to the defense of North America.
    NORAD's mission now has clearly expanded to protect North America 
against a domestic airborne threat. Prior to 11 September 2001, our air 
defense posture was aligned to counter the perceived external threats 
to North America air sovereignty. Within this context, our aerospace 
control and air defense missions have traditionally been oriented to 
detect and identify all aircraft entering North American airspace, and 
if necessary, intercept potentially threatening inbound air traffic. 
These threats were generally considered as hostile aircraft carrying 
bombs or cruise missiles. Based on the recent events, we are now also 
focused on threats originating within domestic airspace such as 
hijacked aircraft. While we have adjusted to provide a rapid response 
to domestic air threats, we continue to execute our previously assigned 
missions.

                            NORAD'S RESPONSE

    On 11 September 2001, we quickly transitioned to an interoperable, 
joint and interagency force consisting of active and National Guard 
units, U.S. and Canadian military aircraft and U.S. Navy ships. 
Additionally, we have positioned portable air control radars to more 
rapidly respond to Federal Aviation Administration (FAA) requests for 
assistance. We are also working together with FAA representatives to 
access FAA radar data and now maintain a continuous communications 
loop.
    With the approval of the President and the Secretary of Defense, we 
now have streamlined the Rules of Engagement for hostile acts over 
domestic airspace to ensure the safety of our citizens and critical 
infrastructure. We have increased our alert posture from 20 fighter 
aircraft standing alert to more than 100 U.S. and Canadian aircraft. 
These aircraft and aircrews now support the continuous combat air 
patrols over Washington, DC, and New York, as well as random patrols 
over other metropolitan areas and key infrastructure. They remain on a 
high state of alert at 26 air bases across the country.
    As a result of this heightened posture, our air defense activity 
has increased significantly. Last year, we scrambled fighter aircraft 7 
times (including exercises) from 10 September-10 October 2000. During 
the same period this year, we scrambled 41 times, and we diverted 48 
fighter patrols from ongoing combat air patrols to assess tracks of 
interest, for a total of 89 events. Likewise, all of our units 
supporting Operation NOBLE EAGLE have experienced a significant 
increase in NORAD-related flying sorties. Normally, our units fly 4-6 
sorties a month in support of the NORAD air defense mission. Since 11 
September 2001, several of our units such as the one at Otis ANGB in 
Massachusetts have flown in excess of 100 sorties in the last month 
(approximately one-third of Otis' entire yearly flying program).

                               CHALLENGES

    From a resource perspective, we must address our manpower 
shortfalls at the units charged with conducting our aerospace warning 
and control missions. The administration's call-up of Reserve and 
National Guard forces was the right solution. In the near term, we need 
to ensure we allocate these forces to meet our greatest needs in the 
field. For the longer term, the execution of our National Military 
Strategy will hinge on our ability to attract and retain high quality, 
motivated servicemen and women and civilian employees. As always, our 
tremendous warfighting capability depends on our people. If we take 
care of them, they will take care of our mission. Without them, even 
our most effective weapon systems are of little value. Congress' 
initiatives to improve military and civilian pay, health care and 
housing for our professionals in uniform are a step in the right 
direction. We are very grateful for your continued support in these 
areas. However, we still have work to do.

                               CONCLUSION

    NORAD remains committed to protect our homeland in the face of this 
national tragedy. We believe we will be key to fighting and winning 
this new war on terrorism against a faceless, cowardly enemy. To do 
this, we need to provide the right people and equipment to get the job 
done and we once again appreciate Congress' continued support. We are 
heartened by the ongoing efforts to improve security at our airports. 
Our hope is that this increased vigilance will deter foul play on the 
ground and eliminate the need to commit fighters in the air. We should 
be the last course of action, implemented only after all other 
protective measures have been tried.
    We stand with you and the rest of the Nation to meet every 
challenge and ensure freedom prevails. I am honored to appear before 
you and look forward to your questions.

    Chairman Levin. General Kernan.

 STATEMENT OF GEN. WILLIAM F. KERNAN, USA, COMMANDER IN CHIEF, 
               UNITED STATES JOINT FORCES COMMAND

    General Kernan. Sir, I would just like to echo the thanks 
of all of our military for this committee and all of Congress' 
staunch support, and in the interest of brevity I would like to 
submit my written statement for the record.
    Thank you, sir.
    [The prepared statement of General Kernan follows:]

           Prepared Statement by Gen. William F. Kernan, USA

    Mr. Chairman, distinguished members of the committee, thank you for 
the opportunity to address this panel on this most fundamental of 
military responsibilities, defense of our homeland. For the purposes of 
this testimony, Homeland Security comprises Homeland Defense and 
Military Assistance to Civil Authorities.
    With over one million soldiers, sailors, airmen, and marines--some 
80 percent of the Nation's general-purpose forces--U.S. Joint Forces 
Command stands ready to defend our homeland and provide trained and 
ready forces to combat terrorism worldwide. As the supported Command 
for the land and maritime defense and civil support aspects of Homeland 
Security, U.S. Joint Forces Command is responsible for defense against 
land and maritime aggression targeted at our territory, sovereignty, 
domestic population, and infrastructure, as well as directly supporting 
the lead Federal agency in the management of the consequences of such 
aggression and other domestic civil support. These responsibilities are 
complementary to Federal, state and local responsibilities and 
capabilities.
    Additionally, we are pressing forward with our other mission areas 
of joint force training, integration, and experimentation with the 
overall objective to transform our Armed Forces to meet the unique 
challenges of the post-Cold War environment.
    The 11 September 2001 attacks have put our Nation and our command 
on a wartime footing. This is a two-front war--at home and abroad. We 
are moving aggressively forward with the Secretary of Defense, the 
Secretary of the Army as the Department's Executive Agent, the Chairman 
of the Joint Chiefs of Staff, the other combatant commanders, and our 
National, state, and local governments to improve our collective 
ability to defend our homeland. Likewise, our deployed forces are 
actively defending the Nation through their offensive actions overseas. 
Make no mistake, the status quo is not an option, and we are developing 
solutions to combat terrorism both at home and abroad.

              OUR RESPONSE TO THE 11 SEPTEMBER 2001 ATTACK

    Within minutes of the terrorist attacks against the World Trade 
Center (WTC), our Joint Operations Center, which operates 24 hours per 
day, began notifying U.S. Joint Forces Command's senior leadership and 
coordinating with the National Military Command Center in the Pentagon 
as well as our component commanders (Atlantic Fleet, Air Combat 
Command, Marine Forces Atlantic, and Army Forces Command). Next, the 
command's operations director activated the Crisis Action Team and 
began assembling key decision makers and planners from throughout the 
command to respond as needed. This action began prior to the impact of 
the second aircraft into the WTC, which ultimately confirmed our 
suspicion that this was an act of terrorism. Actions taken were focused 
in two directions: the possible need for DOD resources to augment first 
responders, and the need to raise the threat condition and force 
protection levels to ensure the safety of military personnel and 
facilities in the United States.
    Immediately after the terrorist attacks, U.S. Joint Forces Command 
rapidly responded to the air, maritime, and land force requirements for 
Operation Noble Eagle. Atlantic Fleet ships and Air Combat Command 
tactical aircraft were deployed in support of North American Aerospace 
Defense Command's (NORAD) mission and responsibilities. Aegis-equipped 
ships were used to enhance the NORAD early warning radar system, two 
aircraft carriers were dispatched to provide sea-borne combat air 
patrol, and the 26th Marine Expeditionary Unit was placed on alert. The 
Joint Task Force-Civil Support was also marshaled and an assessment 
team dispatched to New York City to evaluate whether military resources 
were needed in the consequence management efforts and to coordinate 
support with the designated lead Federal agency. Within 6 hours of the 
attack, Federal authorities made their first request for DOD 
assistance, a request that was passed to U.S. Joint Forces Command by 
the Department of the Army's Director of Military Support (DOMS) for 
quick action. Also, our Service components postured forces to protect 
our critical military infrastructure. Concurrent with these domestic 
support efforts, trained and ready joint forces deployed, and continue 
to deploy, as part of Operation Enduring Freedom, to support the fight 
against terrorism abroad.
    Support to civil authorities has been narrowly focused due in great 
part to the nature of the attacks on New York City and the Pentagon and 
the extent of New York City's robust response capability. However, it 
is clear that other localities might not have such robust and sustained 
capabilities in the face of a similar catastrophe. Clearly, we must be 
ready to provide responsive military support if required while striving 
for deterrence and prevention of future threats. There are numerous 
measures required to realize this posture, both at the military and 
interagency level.
    In concert with ongoing operations and support, we initiated a 
comprehensive Homeland Security planning process working hand-in-hand 
with the Office of the Secretary of Defense, the Joint Staff and my 
fellow combatant commanders. This planning effort additionally included 
extensive coordination and synchronization with the Services, our 
components, and relevant government agencies, including the National 
Guard Bureau.
    As part of this effort, we organized and activated a 90-person 
Homeland Security Directorate from within the command, with a two-star 
Army general in charge, to oversee planning, organization and execution 
of our responsibilities towards Homeland Defense and Military 
Assistance to Civil Authorities. Leveraging the insights and concepts 
gained from our joint training and experimentation work, we are 
employing emerging concepts to organize, train and operate this new 
organization as a highly functional command and control headquarters to 
conduct Homeland Security.
    These efforts have borne fruit as we take on responsibility for the 
land and maritime defense of our Nation. We are postured to execute our 
responsibilities in support of the National Homeland Security effort in 
accordance with the Secretary of Defense's direction. We are continuing 
to adapt ourselves for a sustained effort and to respond rapidly in 
support of civil authorities.
    In addition to the innovative organizational and operational 
approaches mentioned above, we are conducting parallel planning with 
the Joint Staff and our components to develop a Homeland Security 
Campaign plan. We have established liaison with the appropriate 
military, defense and select Federal agencies and we are prepared to 
work in concert with them to execute the Homeland Security mission.
    We have been in close coordination with the applicable unified 
commands, particularly with Adm. Denny Blair at U.S. Pacific Command 
and Gen. Ed Eberhart at NORAD, to outline and discuss campaign plans 
for Homeland Defense. These efforts will continue, coordinating with 
Service components and other commands to refine details of a campaign 
plan and prepare necessary orders as additional guidance is received.
    Finally, we are ready to provide command, control, and assessment 
capabilities in response to chemical, biological, radiological, 
nuclear, or enhanced high explosive incidents using Joint Task Force-
Civil Support (JTF-CS), Regional Task Forces East and West, the Marine 
Chemical Biological Immediate Response Force, Weapons of Mass 
Destruction-Civil Support Teams (WMD-CST), and other forces as 
necessary. This will be discussed in greater detail later in this 
statement.

                      SUPPORTING HOMELAND SECURITY

    U.S. Joint Forces Command is currently working in support of DOD 
leadership to dynamically refocus national responsibilities for 
homeland defense and security. The goal is to coordinate all national 
security elements to ensure the best possible predictive capability and 
proactive response.
    With this planning and command and control capability as a 
foundation, our components are protecting our critical military 
infrastructure. Likewise, after a careful review of applicable 
contingency plans and functional plans with our components, U.S. Joint 
Forces Command is ready to execute and support the national campaign to 
protect our country.
    As the command responsible for the land and maritime defense of the 
continental United States, we work closely with many Federal 
organizations to achieve unity of effort. Our key partners include the 
U.S. Coast Guard and the law enforcement community. In developing our 
ties to law enforcement, there has been much innovative and path 
breaking work since 11 September to share critical information while 
still safeguarding the liberties of American citizens. We have more 
work to do to achieve full intelligence fusion and gain a true measure 
of accurate, actionable, predictive analysis. That will enable all of 
us, in support of and led by law enforcement, to transition from 
today's posture of deter and respond to a more proactive stance of 
effective prevention.
    In the area of military assistance to civil authorities, we are an 
active member of the Federal response community, and coordinate with 
and support the various Federal response organizations, most notably 
the Federal Emergency Management Agency (FEMA). These are long-standing 
ties and feature well-practiced procedures previously used in support 
of Federal efforts to deal with the effects of wildfires, floods, and 
storms. Our partnerships in the area of military assistance are solid 
and well-understood.
    In light of these responsibilities, here is U.S. Joint Forces 
Command's posture for providing responsive support to the Nation:
    We have designated selected active duty ground forces as rapid 
reaction forces and placed them on increased readiness. These Army and 
Marine forces are stationed at bases that provide regional coverage 
throughout the continental United States. Our intent is to provide the 
President and the Secretary of Defense a flexible and responsive 
capability in the event of unexpected incidents. We have also 
designated necessary air transport from the Air Force's active, Guard, 
and Reserve C-130 fleet to enable these reaction forces to rapidly 
respond when requested to support local, state, or Federal emergencies. 
We have exercised and trained these forces, and prepositioned aircraft 
at the Reaction Force departure airfields where they are ready to load 
now.
    In our role as the joint force provider, U.S. Joint Forces Command 
is providing forces as tasked to support military operations overseas 
in support of Operation Enduring Freedom.
    We are prepared to provide naval forces in support of Coast Guard 
operations in ports and adjacent waters.
    We provide active and Reserve component tactical aircraft to NORAD 
and, in partnership with Pacific Command, will provide maritime assets, 
if needed, to defend our coasts.
    We are also identifying additional support forces, such as chemical 
and biological detection and defense units, many of which reside in the 
Reserve component, which might require mobilization to maintain the 
appropriate capabilities.
    We have worked closely with local, state, and Federal authorities 
to be ready. I have met personally with Lieutenant General Russ Davis, 
Chief of the National Guard Bureau and Admiral Jim Loy, Commandant of 
the U.S. Coast Guard to discuss how best to integrate National Guard, 
Coast Guard, and Active and Reserve Forces to secure our homeland. They 
have sent liaison officers to U.S. Joint Forces Command, who are 
integrated into our planning and operations, and our respective staffs 
are working closely to ensure a seamless response to any event.

                     JOINT TASK FORCE-CIVIL SUPPORT

    U.S. Joint Forces Command also has the responsibility to provide 
military assistance to civil authorities. Along with traditional 
assistance to local, state, and Federal agencies in the event of 
natural disasters or civil disturbances--which we have planned and 
organized for previously--we are also charged with providing 
Consequence Management support.
    Consequence Management is a critical task and for that purpose we 
had previously formed and trained a standing joint task force 
headquarters called Joint Task Force-Civil Support (JTF-CS). Joint Task 
Force-Civil Support is a command and control headquarters ready to 
respond today to support the lead Federal agency in the event of an 
attack by weapons of mass destruction (WMD).
    Let me outline the genesis of Joint Task Force-Civil Support and 
clarify what it is and what it is not. The 1999 Unified Command Plan 
(UCP) assigned U.S. Joint Forces Command the responsibility for 
planning and executing military assistance to civil authorities for 
consequence management of weapons of mass destruction within the 
continental U.S. The 1999 UCP also tasked U.S. Joint Forces Command 
with responsibility for consequence management response to chemical, 
biological, radiological, nuclear and high yield explosives (CBRNE) for 
the 48 contiguous states and the District of Columbia. U.S. Pacific 
Command and U.S. Southern Command were given responsibility for CBRNE 
consequence management within their respective areas of responsibility; 
U.S. Joint Forces Command provides support to them as necessary for 
their Consequence Management missions. Joint Task Force-Civil Support 
was activated in 1999, and following a rigorous training and validation 
process, JTF-CS achieved full mission capability in April 2000. It is 
currently authorized 36 personnel with a requested growth to 103 by 
2003. In light of current conditions, and in order to maintain a 
continuous 24-hour response, I have authorized through assignment and 
augmentation the expansion of the headquarters to 164 personnel.
    Joint Task Force-Civil Support has the mission to command and 
control all DOD assets deployed to mitigate the effects of a chemical, 
biological, radiological, nuclear and high yield explosives-incident, 
in order to save lives, prevent injury and provide temporary critical 
life support. I want to emphasize that JTF-CS is not a lead agency nor 
does it provide a first response capability. Joint Task Force-Civil 
Support's mission is to provide command and control of military forces 
in support of the designated lead Federal agency, for example, Federal 
Emergency Management Agency (FEMA). Joint Task Force-Civil Support's 
primary functions also include consequence management support to 
national special security events such as the State of the Union address 
last February.
    As envisioned, JTF-CS was designed to be a command and control 
headquarters without assigned forces, organic communications, or 
dedicated transportation. Required forces, communications and 
transportation assets are allocated as the mission dictates. We are 
taking steps to allocate forces to habitually train and work with JTF-
CS. It has the normal staff organizations you would expect, with the 
addition of an interagency coordination element, comprising seven 
personnel to include a U.S. Coast Guardsman, that is the conduit for 
working with Federal agencies. This coordination element interfaces 
regularly with FEMA headquarters and FEMA regions as well as the 
Department of Health and Human Services.
    Joint Task Force-Civil Support has developed detailed force 
requirements for a variety of likely consequence management 
contingencies. These requirements include communications and 
transportation units, as well as service support, engineers, medical, 
aviation and specialty units like the National Guard Civil Support 
Teams (CST). The Service components are working through sourcing for 
these contingency packages to facilitate joint training and exercises 
to maximize proficiency. With forces allocated based on the mission, 
the headquarters is ready for employment, but needs more depth. It is a 
``one of a kind'' organization. With that in mind, we are assessing its 
current structure and whether a second JTF-CS organization is required.
    To further unity of effort between the varieties of forces that may 
potentially be involved in providing support to a CBRNE incident, JTF-
CS has directly coordinated with a wide array of Federal, state, local, 
and military organizations to conduct training and planning.
    As you can see, U.S. Joint Forces Command has aggressively moved 
forward since we received the military assistance to civil authority 
mission as outlined in the 1999 UCP.

            WEAPONS OF MASS DESTRUCTION--CIVIL SUPPORT TEAMS

    Another critical asset in Homeland Security are the National Guard 
WMD-CSTs. These teams immediately deploy to the incident site to (1) 
assess a suspected nuclear, biological, chemical, or radiological event 
in support of the local incident commander (2) advise civilian 
responders regarding appropriate actions and (3) facilitate requests 
for assistance to expedite arrival of additional state and Federal 
assets to help save lives, prevent human suffering, and mitigate 
property damage. The WMD-CSTs are National Guard assets that are manned 
by their respective states, and trained and equipped by the National 
Guard Bureau. We currently are funded for 32 WMD-CSTs, of which ten 
have been certified by the Secretary of Defense (in Washington, 
Colorado, New York, Texas, Massachusetts, Missouri, California, 
Illinois, Pennsylvania, and Georgia). Seventeen are in various levels 
of training and equipping (not yet ready for certification); five still 
need to be activated. We eventually expect to have a certified WMD-CST 
in each U.S. State and in all U.S. territories.
    Joint Forces Command is tasked only with training and readiness 
oversight of the WMD-CSTs and does not assume that responsibility until 
a WMD-CST receives Secretary of Defense certification. We are working 
closely with the National Guard Bureau and the states where those teams 
reside to standardize their training, tactics, techniques and 
procedures.

                    LEVERAGING JOINT TRANSFORMATION

    As our President stated, this is a war ``unlike any other.'' It 
demands fresh approaches and new thinking. We are and have been working 
on just such innovative joint operational concepts.
    With our redesignation as U.S. Joint Forces Command on 1 October 
1999, we assumed the responsibility to lead the transformation of the 
U.S. Armed Forces to achieve dominance across the width, depth, and 
breadth of any battlespace. That means that whether in peace, conflict, 
or war, anywhere on the spectrum of operations, we will fight and 
defeat any adversary. Our command is focused on achieving that 
objective, and the events of the last month, both at home and abroad, 
have shown that we must accelerate those efforts. We need today's 
forces to get to the objective area quicker, dominate the situation, 
and win decisively. Comprised of highly trained, competent units and 
leaders, those forces need to operate with agility, versatility, 
precision and lethality.
    Combating terrorism, protecting the homeland, and transformation 
are inextricably linked. We are working today with Enduring Freedom's 
joint warfighters to rapidly operationalize the innovative ideas we 
have been working on through our joint concept development and 
experimentation program. The war on terrorism cannot be won with legacy 
means alone. Development of advanced techniques, tools, and 
organizations for these challenges require new thinking and aggressive 
experimentation to develop alternatives for the future joint force.
    For more than a year, U.S. Joint Forces Command has been working on 
proposals for transformation that can directly address the operational 
requirements we face today. Our most recent experiment on advanced 
concepts, Unified Vision 2001 last May, envisioned a set of conditions 
similar to those we face today. The intellectual foundation for dealing 
with these new conditions should put us in the position of being able 
to more rapidly operationalize our best concepts.
    Converting these concepts into operational capabilities is now our 
challenge. As we task organize our command for its role in winning this 
war, we are also integrating many of our new ideas into our 
organization and operations. Our execution of the Homeland Security 
mission, and the fight against terrorism abroad, will be built around 
the doctrinal, organizational, and technical findings that come from 
our transformational efforts.
    Our efforts to date have set the conditions for unified 
transformation activities to take place across the Services and the 
Joint Force. Our concept development and experimentation efforts over 
the past 2 years have established the common joint context for service 
concept development, have facilitated collaborative concept development 
across the Services, and have synchronized the joint and service 
experimentation programs.
    Further, I think that these insights are compelling and have 
immediate application. As I mentioned earlier, we leveraged these 
concepts to guide our efforts to stand up our Homeland Security 
Directorate and guide development of our Homeland Security Campaign 
Plan. But in all of this, we have to remember the basics. War remains 
close, personal, and brutal. There is no silver bullet that can change 
that. There have been revolutions in how we fight . . . gunpowder, 
nuclear weapons, and computers. But in the end, it still comes down to 
our willingness and capability to decisively defeat our enemy. It's 
never safe, easy, or risk-free. The enemy sees to that. Today while I 
talk to you, there are people flying, sailing, and standing in harm's 
way, under enemy guns, at night, and far from America. Our national 
will, combined with their spirit and tenacious commitment, will define 
our success. I look forward to working with you to give our troops what 
they need.
    In closing Mr. Chairman, the soldiers, sailors, airmen and marines 
of U.S. Joint Forces Command are ready to defend our homeland and are 
deploying to fight terrorism abroad. We are acting now, and ready to do 
more. Each day, we improve our capabilities, refine our plans and 
increase our Homeland Security capabilities while providing trained, 
ready, and--over time--fundamentally transformed forces for combat 
operations against terrorism.

    Chairman Levin. Thank you very much. We will follow the 
usual procedure here. We will have an early bird rule with a 6-
minute round.
    Secretary White, can you describe what your authority is as 
the DOD Executive Agent for Homeland Security? For instance, 
does it extend to authority over the combatant commanders, or 
the forces assigned to them?
    Secretary White. Senator, my authority as Executive Agent 
is to act on behalf of the Secretary to organize and get moving 
the whole business of homeland security. I do not see myself as 
having any operational authority or being a part of the chain 
of command. I will make recommendations to the Secretary, and 
he will exercise his authority.
    Chairman Levin. Is it clearly established that you are not 
in the chain of command?
    Secretary White. The Secretary is the chain of command 
along with the President, and I, as his Executive Agent, make 
recommendations to him, but I do not exercise command 
authority.
    Chairman Levin. Thank you. Mr. Secretary, would you 
describe what you understand your relationship with Governor 
Ridge and his office is going to be? How would, for instance, 
good faith disagreements be resolved between the two agencies? 
I know in your opening testimony you said you intend to fully 
assist him, but there will be differences from time to time, 
and the question is, when they are not resolved, who wins? Who 
prevails? I know truth and justice will win, but who will 
prevail?
    Secretary White. Well, you know as well as I, the charter 
that Governor Ridge has for homeland security is directly from 
the President. We have had excellent initial meetings with 
Governor Ridge. We have detailed a senior officer of the 
Department who has extensive experience in homeland security to 
serve on his staff. If there are differences of opinion between 
the Department and Governor Ridge, I would presume that they 
would be resolved, like any disputes in the executive branch, 
either at the principal's level or at the Cabinet level, or 
ultimately with the President himself.
    Chairman Levin. Mr. Secretary, could you give us your 
position on the suggestion that the Posse Comitatus Act needs 
to be revised?
    Secretary White. I think, Senator, that at this stage our 
general view is that the act is fine the way it sits. It has a 
longstanding tradition of not using Federal forces in a law 
enforcement role that I think serves the Nation well.
    The General Counsel of the Department, in response to your 
communication, is studying it in more detail to see if there 
are revisions that need to be made to certain aspects of it, 
either for flexibility or to deal with the new situation, but 
in general this longstanding tradition is one that we would 
like to see prevail. There may, of course, be necessary minor 
revisions.
    Chairman Levin. As part of that consideration, are you 
looking at what the impact of training and using our Armed 
Forces to enforce the law would have on their warfighting 
capabilities, their readiness? Is that all being considered as 
a part of this review, or is it just a legal issue?
    Secretary White. It is principally a legal review of the 
law against the current situation. The broader issue that you 
raise gets to the whole fundamental question of having a common 
force pool of active and Reserve components that have 
longstanding primary missions in support of the combatant 
commanders in chief, but that also have important homeland 
security responsibilities either on a State or a Federal basis. 
Obviously with the current events these challenges are on us 
concurrently.
    As we sit here today, the 29th Division from the Virginia 
Guard is deployed in Bosnia, and consequently the elements that 
are in Bosnia are not available to the Governor of Virginia for 
title 32 purposes for homeland security, so as my colleagues 
and I go about our business of the operational planning for 
homeland security, one of the issues that has to be dealt with 
is force apportionment, and how much time will be focused on 
homeland security, and how much time will be focused on normal 
warfighting activities.
    Chairman Levin. Thank you.
    General Eberhart, there has been some confusion about the 
sequence of events on September 11 that maybe you can clear up 
for us.
    The time line we have been given is that at 8:55 on 
September 11, American Airlines Flight 77 began turning east, 
away from its intended course, and at 9:10 Flight 77 was 
detected by the FAA radar over West Virginia, heading east. 
That was after the two planes had struck the World Trade Center 
Towers.
    Then 15 minutes later, at 9:25, the FAA notified NORAD that 
Flight 77 was headed towards Washington. Was that the first 
notification NORAD or the DOD had that Flight 77 was probably 
being hijacked, and if it was, do you know why it took 15 
minutes for the FAA to notify NORAD?
    General Eberhart. Sir, there is one minor difference. I 
show it as 9:24 that we were notified, and that was the first 
notification we received. I do not know, sir, why it took that 
amount of time for the FAA. You will have to ask the FAA.
    Chairman Levin. Do you know if that was the first 
notification to the DOD?
    General Eberhart. Yes, sir, that is the first documented 
notification we have.
    Chairman Levin. Either NORAD or any other component of the 
DOD?
    General Eberhart. Yes, sir.
    Chairman Levin. I have a number of other questions relative 
to that issue which should be clarified, and I am going to ask 
you those questions for the record to clear that up. It seems 
to me we all should have a very precise timetable and the 
precise indication of why other agencies or entities were not 
notified by FAA, if they were not.
    Perhaps you could make that inquiry for us, or we will ask 
the FAA directly, if you prefer. We would also ask what 
notification was given to the buildings in Washington once it 
was clear that this plane was headed towards Washington, but we 
will save those for the record.
    Senator Warner.
    Senator Warner. I would have thought all of you in this 
chamber would have gone back and rehearsed these things, 
figured out what happened, what went wrong, so that we ensure 
it will not happen again. If there was that significant a delay 
and you cannot tell us why, how do we leave with an assurance 
that you and your subordinates have taken steps so that it will 
not happen again?
    General Eberhart. Sir, I assure you we have, and we 
practice this daily now. It now takes about 1 minute from the 
time that FAA sees some sort of discrepancy on their radar 
scope, or detects a discrepancy in terms of their 
communication, before they notify NORAD, and so that certainly 
has been fixed.
    I think at that time the FAA was still thinking that if 
they saw a problem, it was a problem that was a result of a 
mechanical failure, or some sort of crew deviation. They were 
not thinking hijacking. Today, the first thing they think is 
hijacking, and we respond accordingly.
    Senator Warner. So working with the FAA, NORAD had not 
rehearsed the possibilities of an aircraft being seized for 
some terrorist activity?
    General Eberhart. Sir, the FAA is charged with the primary 
responsibility in terms of hijacking in the United States of 
America. We are charged with assisting the FAA once they ask 
for our assistance. The last hijacking of a commercial aircraft 
in the United States of America was 1991, so although we 
practiced this day in and day out, the FAA sees on their scopes 
scores of problems that are a result of mechanical problems, 
switch errors, pilot errors, et cetera, and that is what they 
think when they see this.
    Although we have exercised this, we have practiced it, in 
all the hijackings I am aware of, where we have plenty of time 
to react, we got on the wing, and we followed this airplane to 
where it landed, and then the negotiations started. We were not 
thinking a missile, an airborne missile that was going to be 
used as a target, a manned missile, if you will. In most cases 
when we practiced this, regrettably we practiced it, the origin 
of the flight was overseas, and we did not have the time-
distance problems that we had on that morning. We had plenty of 
time to react, we were notified that for sure there was a 
hijacking, and we were notified that they were holding a gun to 
the pilot's head and telling him to fly toward New York City or 
Washington, DC.
    So that is how we had practiced this, sir. I certainly wish 
we had practiced it differently, but I really think that for 
sure in the first two instances of 11 September, and probably 
in the third, time and distance would not have allowed us to 
get an airplane to the right place at the right time.
    Senator Warner. Let me just ask the following. You are now 
the commanding officer in charge of the Combat Aircraft Patrol 
(CAP) missions being flown over our various communities, which 
so far as I know have functioned exceedingly well and serve, I 
think, as a strong deterrent. It is being performed by Guard 
and regular aviators, am I not correct?
    General Eberhart. That is correct, sir.
    Senator Warner. Are the missions for the Guard any 
different than for the regular aviators?
    General Eberhart. No, sir.
    Senator Warner. They fly the same?
    General Eberhart. Yes, sir.
    Senator Warner. If an aircraft begins to deviate and such 
security measures as are on board fail, whether it is an armed 
guard and so forth, then your aircraft is instructed, with 
certain procedures, to fire and take that plane down. That is 
basically what happens.
    General Eberhart. When given the proper authority, yes, 
sir.
    Senator Warner. Here is my problem, and it is one of the 
reasons that I raise this posse comitatus situation. I have 
done some independent research on this matter. The Air Guard 
person is up there within the law of posse comitatus. It is a 
criminal penalty, as our chairman stated. By what authority is 
the regular performing duty that the Air Guard is doing so we 
get around the posse comitatus?
    General Eberhart. Sir, I believe in this case it is not a 
law enforcement action. I believe it is a national defense 
action.
    Senator Warner. Well, you say that. It could be a bunch of 
drunks on the plane who have caused it--I mean, there are 
scenarios by which it could not be terrorism. That is one of 
the reasons I have raised this issue. I have been criticized 
roundly for bringing this up, first in a question to the 
Secretary of Defense, who acknowledged at that time in the 
hearing that he felt it ought to be reviewed.
    It is a subject of considerable debate in the National 
Journal, and I do not mind taking criticism, but I really think 
somebody ought to look at this very carefully, because what 
that aircraft is doing is supplementing what the armed guard is 
doing on the plane. If that measure fails, then and only then 
will that aircraft perform its really awesome mission. I just 
think we had better look at this posse comitatus.
    We also have to look at it because we could have situations 
where enormous numbers of our citizens could be put in harm's 
way by some disaster, and the military folks who remain nearby 
could come in and help the police establish some law and order, 
if only to protect the citizens in some way against further 
harm. So I am glad somebody is taking a look at the situation 
of posse comitatus.
    I agree with you, Mr. Secretary, the document has served us 
very well, but there comes a time when we have to reexamine the 
old laws of the 1800s. Given the challenge that we are faced 
with today, I would take a look, and have your lawyers take a 
look at that situation, because in Europe I am told by the 
Department of the Air Force that they are referred to as air 
police. Have you ever heard that term in Europe applied?
    Secretary White. No, sir.
    Senator Warner. Take a look at it. Have you or General 
Eberhart?
    General Eberhart. No, sir, I have not.
    Senator Warner. You ought to have a chat with a couple of 
the other two-stars around the hall. We ought to clarify that.
    To you, General Pace, the Secretary of Defense, in 
consulting with Senator Levin and myself and members of the 
House, talked about proposals by which to either modify a 
current CINCs responsibility and/or maybe even the creation of 
another CINC to deal with the homeland defense, and also the 
possible need for an additional, say, Deputy Secretary of 
Defense to be the counterpart for Governor Ridge and such other 
individuals within the Department of Defense and other agencies 
and departments will begin to form the structure to deal with 
these important challenges of homeland defense. To what extent 
can you elaborate on that for us?
    General Pace. Senator, thanks. The Unified Command Plan is 
a plan that breaks down the individual authorities of the 
individual commanders and, as you also know, it is the 
Chairman's responsibility to recommend to the Secretary of 
Defense changes to those.
    As we speak, the individual service chiefs and the 
combatant commanders are proposing changes to the Unified 
Command Plan. They will be in to the Chairman by the end of 
October. The Chairman will quickly synthesize all of those and 
go forward to the Secretary with his recommendations for the 
changes. One of the key elements in there is the requirement 
for a CINC specifically designated for homeland defense.
    If I may go back to your previous question, sir, just to 
elaborate on the airmen who are flying right now. Because the 
authority to shoot down that airplane must come from either the 
President or the Secretary of Defense, and because the 
President has emergency powers to use his Armed Forces in that 
capacity, the particular pilot who is ordered to take that 
action would not be, in my judgment, subject to criminal 
prosecution.
    Senator Warner. There is this exception in there, and I 
think you raise a very important aspect of it. By virtue of the 
President ratifying the subordinate commander's recommendation 
that the shootdown occur, he then would be operating under that 
exception of posse comitatus?
    General Pace. Yes, sir, and we should certainly take a look 
at that, sir, but we do not have your service members today in 
any jeopardy.
    Senator Warner. But, I mentioned it could be a bunch that 
is intoxicated. It could be a mentally deranged person on the 
plane. There are other hypotheses, regrettably, that jeopardize 
the safety of aircraft from time to time which are apart from 
terrorism.
    Chairman Levin. Thank you very much, Senator Warner.
    Senator Cleland.
    Senator Cleland. Thank you very much.
    I would like to pursue this question of posse comitatus. I 
am not a lawyer, but I really agree with Senator Warner, that I 
think the events of September 11 have given us a new 
demarcation here in our reaction as a defense team, or as a 
defense system, and I will say that I think it was proper in 
1947 for the U.S. War Department to then be called the Defense 
Department. Since 1947 we have all been in the defense 
business. The defense of what? The defense of NATO, certainly. 
The defense of Bosnia, the defense of South Korea, certainly, 
but ultimately the defense of our homeland.
    So I think the number 1 lead agency for the defense of 
America is the Defense Department. That is where we put our 
money, our time, and our energy. We ask young Americans to risk 
their lives in harm's way in America and all over the globe for 
that purpose, so that is where I am coming from.
    Regarding posse comitatus, to me the date 1878 says it all. 
In my understanding, that is when President Grant asked 
Sherman's troops to leave Georgia and said, don't come back. I 
mean, that was the era where we had for 10 years Federal 
occupation of a number of States in America. There was great 
resentment of that, so I think the posse comitatus law that you 
could not in effect nationalize the American Armed Forces and 
have them go somewhere and occupy somebody, I think that was a 
direct reaction to that particular era.
    The point is, when it came to the war on drugs, in 1980 we 
amended the posse comitatus law to allow the American military 
to do what, to defend our homeland, and American blood has been 
shed on American soil by a foreign foe on September 11, and now 
we are under attack by germ warfare. I do not think we need 
much more evidence to understand that we are not dealing with a 
crime. If this were a crime we would put the FBI Sherlock 
Holmes detectives on it, and we would nail Timothy McVeigh and 
execute him.
    This is war, and so I am not quite comfortable with the FBI 
leading the war against terrorism and being the lead agency 
when we have the entire Department of Defense out there taking 
second seat. I think we have to figure out a new posse 
comitatus amendment that allows the Department of Defense to 
step forward and defend America.
    It is interesting that when the commander in chief was 
faced with that on September 11 he said, not only yes, but 
definitely yes, put your aircraft in the air, General Eberhart, 
without batting an eye. So in reality, that posse comitatus 
went out the window real quick. The commander in chief said so, 
and he had a right to say so, and he did the right thing, and 
so I do not think we are in a crime scene here. I think we are 
in a war.
    If we are in a war, then I think the Department of Defense 
ought to be the lead dog here. If we work from that premise, 
then everybody else can follow in, or follow along and be part 
of a homeland defense team, but I have been looking for a 
leader in this thing. We just got a briefing here from Senator 
Nunn, who sat in that chair, Mr. Secretary, just a few hours 
ago. He played the President in a Dark Winter exercise, a germ 
warfare attack against the United States, and what did he find? 
He said, ``I found myself getting very impatient with 
bureaucracy.'' In other words, he found that the agencies were 
not coordinating, were not cooperating with one another, and 
that is where we are today.
    So I think we are in search of defining exactly what we 
want to do as a Nation here. If we want to defend ourselves, 
especially our homeland, the lead agency ought to be the 
Department of Defense. I think there should be maybe a CINC for 
the homeland area, to work closely with the homeland guard, or 
the homeland czar, or whatever, but I am beginning to see that 
we need somebody to step up to the plate, and I think that is 
the Department of Defense.
    Now, I know it was not popular to be involved in 
counterterrorism and so forth, and the American military wanted 
to be engaged elsewhere, but up until September 11 
counterterrorism was buried over there in the Justice 
Department and the FBI somewhere. Now we realize it is homeland 
defense. It is what we are in the business of, survival, and so 
I just thought I would throw that out.
    Mr. Secretary, I want to ask you one question. The 
President mobilized the Air Force within a matter of hours to 
defend our Nation and said, we are in a war against terrorism. 
The Coast Guard, in a war, comes under the Department of 
Defense. Have you thought about asking for the authority, since 
the President says we are in a war, to put the Coast Guard in 
the Department of Defense now?
    Secretary White. On a permanent basis, not in a national 
emergency, but----
    Senator Cleland. I would settle for a national emergency 
basis.
    Secretary White. That is a good question, and there has 
been thought on that, obviously. If you look at the events of 
11 September, the Navy and the Coast Guard have worked very 
closely for maritime and coastal defense, as they have for a 
long time, and the Commandant of the Coast Guard regularly 
attends coordination meetings in the tank with the other 
leaders of the military, so there is close coordination, albeit 
at this point no direct chain of command authority.
    Senator Cleland. Because the Coast Guard currently is under 
the Secretary of Transportation, and in so-called peacetime it 
is quite adequate, but this is not peacetime. This is war, and 
we have been made painfully aware of that, and I would just 
suggest that you look at that as one step towards DOD becoming 
more engaged in the war on terrorism.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Inhofe.
    Senator Warner. Senator Inhofe, would you yield just to 
suggest to our witnesses in reference to the remarks made by 
our colleague, there is a very good piece written by Paul 
Stevens, called ``U.S. Armed Forces Homeland Defense, the Legal 
Framework.'' I would urge that those who have not had a chance 
to refer to it, it covers some of the points that our 
distinguished colleague just reviewed.
    Thank you, Mr. Chairman.
    Senator Inhofe. General Eberhart, quite a few questions 
have been asked about the length of time it has taken us to 
respond to certain requests, and I am naturally concerned. We 
have the 5073 fielding that is involved in all of this out in 
Oklahoma.
    Have you ever just sat down and in a very brief way 
described what the decisionmaking matrix is for this process of 
having to make a shootdown?
    General Eberhart. Yes, sir. First, we are cued by the FAA. 
Now that cueing is a lot easier. We are actually up on a 
hotline, a chat line with the FAA all the time, so as soon as 
the FAA realizes there is a problem, we realize there is a 
problem simultaneously. We have taken what we call air battle 
managers and put them in the FAA sector, so they are present 
for duty and are there to coordinate and facilitate. You are 
familiar with air battle managers from the Airborne Warning 
Control Systems (AWACS). They are at Tinker Air Force Base.
    We also have increased FAA presence at our regions and our 
sectors. The most important thing is cueing, so that we know 
there is a problem. Cueing allows us to work the time-distance 
problem I alluded to earlier.
    Second, we have continuous CAPs over Washington, DC, and 
New York City, which obviously allow us to respond very quickly 
in those locations of the northeast seaboard.
    We also run random CAPs throughout the United States of 
America over population centers and key infrastructure. Our 
goal there is to be unpredictable, and to have would-be 
terrorists know that we might be there, so your chances of 
success are not very good.
    Then finally, we have improved the communication lines 
between the pilot to the sector, the regional controllers, and 
to me. We have exercised this almost daily to make sure that 
once we see this problem, once we get in a position where we 
can take action, all of that information is relayed up to the 
National Command Authorities, and we get the authority to take 
the action that they deem is appropriate. Hopefully, that is 
the action we have recommended to them.
    Senator Inhofe. Thank you, General. That is very specific, 
and I do appreciate that. Talking about the CAPs program, the 
role of the Guard, there has been some discussion on the 
changing of equipment. For example, I understand the F-15 would 
perhaps perform those duties better than the F-16. A lot of the 
changes in this program since 11 September are going to cost 
money. Are these in the QDR, or are you working on that now? 
First of all, do you think there will be a substantial increase 
because of the changes in emphasis and equipment?
    General Eberhart. Sir, I think there are changes that are 
appropriate. There are modernization programs that are 
appropriate. We are reviewing those as we speak. Some of those 
programs were included in the Department's request for the 
supplemental. First and foremost I think we need to focus on 
our command and control systems. As a matter of fact, our 
command and control systems are 1970s and 1980s technology in 
NORAD. They really have not kept pace over the years, and so we 
need to bring them into the 21st century.
    There are other things like additional radios for the F-
15s, VHF radios, which you are very familiar with, and fighter 
data links. Right now, we are awaiting the benefit analysis for 
these missions, and they are part of the supplemental that came 
in, and will be part of the 2003 request.
    Senator Inhofe. You are working on that now?
    General Eberhart. Yes, sir, we sure are.
    Senator Inhofe. General Pace or anyone else, I came in kind 
of disagreeing with some of the things Senator Cleland said, 
but he made a very persuasive argument in terms of the use of 
our military. Historically, I have always opposed the use for 
one specific reason we have not talked about here today, and 
that is that we are currently in a crisis in terms of our 
deployments, in terms of our force strength, and I know 
everyone gets tired of hearing us talk about it, but 
nevertheless it is true that we are about one-half of where we 
were back in 1991 and we have deployments in places like Bosnia 
or Kosovo, where many of us do not believe we should have been 
deployed.
    Nonetheless, if you are going to have an expanded role for 
the military into these areas, I contend that you do not have 
to change the act to do that. There is recently a study 
released on October 12, that is this year, by the Center for 
Strategic Studies here in Washington, DC, and it says neither 
the Posse Comitatus Act nor, apparently, any other statute 
purports to deny, limit, or condition the President's use of 
the Armed Forces in response to a catastrophic terrorist attack 
on the United States.
    I guess what I am saying is I think it is going to happen 
anyway regardless of what we do with that act. My concern is 
that it affects readiness. I spent 5 years chairing that 
subcommittee, and I have been concerned about deterioration 
because of the force strength, modernization, and our 
deployments. How is this going to negatively impact it, and 
what can we do about that?
    General Pace. Senator, as we do with all allocations of 
resources, allocations especially of service members, part of 
the process that delivers to the Secretary of Defense a 
recommendation to send troops to Bosnia or to allocate troops 
to a particular section of this country will include the impact 
on readiness for the next most likely deployment of those 
forces, so when it goes forward to him it tells him, we need X 
number of troops to do this particular mission. If you send 
them on this mission, then we will need X number of months to 
get them back, retrained and ready to go for their most likely 
combat mission, so that kind of readiness equation is part of 
the process that tees up the decision for the Secretary.
    Senator Inhofe. I understand that and appreciate that, but 
that is on a specific mission or deployment. Right now, we are 
dealing with unknowns. We are establishing a policy whereby we 
may be using military in some areas where we had not used them 
in the past, and I would just caution all of us to keep that in 
mind, that somehow the cost of that is going to have to be 
transmitted to us and we will have to act on it.
    Unfortunately, it may be too late, and so we need to 
prepare as much in advance, if anything new is going to be 
imposed upon our military than they are already in their 
overloaded commission performing today.
    Secretary White. I suppose airport security is a classic 
example. We have today 6,000 guardsmen that are deployed in 430 
airports across the country, augmenting security forces. That 
is all under State control, but that comes out of the same 
force pot that we send to Bosnia and we have Federal authority 
for, and that is the real challenge that we have to deal with 
here.
    Senator Inhofe. Thank you very much.
    Chairman Levin. Thank you.
    Senator Carnahan.
    Senator Carnahan. Secretary White, I would like to follow 
up on a question the chairman asked earlier and ask you to 
elaborate on what steps are being made to coordinate your 
activities with the new Office of Homeland Security headed by 
Governor Ridge.
    Secretary White. Senator, I have met with Governor Ridge 
and laid out for him in some detail how the Department operates 
in support of homeland security, both the civil support side 
and the defense side. We have assigned a senior officer and 
other staff to his office. The former Commander of the Joint 
Task Force for Civil Support from Joint Forces Command, who has 
extensive experience in homeland security, will be a part of 
Governor Ridge's office, and I look forward to detailed 
coordination with him as we go forward.
    Senator Carnahan. Thank you.
    General Kernan, there are currently 27 National Guard 
Weapons of Mass Destruction Civil Support Teams (WMD-CSTs) in 
existence. Ten of these teams have been certified to assist in 
detecting the presence of chemical or biological agents. What 
are the roles of civil support teams in the event of a chemical 
or biological attack, and how else could these teams be of 
assistance as civilian first responders in the event of such 
attacks?
    General Kernan. Senator, the civil support teams come under 
State title 32 responsibilities to the Governor. They are the 
first responders. They possess 14 different specialties. They 
are commanded by a National Guard Lieutenant Colonel. They have 
a mobile analytical lab and a mobile communications suite.
    What they do is, they arrive at the incident site, they 
assess, they analyze, they validate, and they facilitate the 
military support that may be required to a catastrophic 
incident in a State. They initially work for the State 
Governor. If additional military support is required for a 
weapons of mass destruction incident, or high yield explosive 
event in the United States, they would then facilitate the 
military support coming to help save lives, prevent suffering, 
and reestablish critical infrastructure and facilities.
    Secretary White. May I add that of the 10 that we have, 
since 11 September every one of them has been employed for a 
variety of tasks by the Governors, to include early on the team 
in New York under the control of Governor Pataki, so we have 
found them already to be enormously useful, and we are 
accelerating the training and certification of the additional 
teams.
    Senator Carnahan. Thank you.
    General Eberhart, you are responsible for overseeing the 
security of America's skies. Would you describe the new 
procedures that are in place to respond to hijacking of 
commercial aircraft, and if there are additional resources you 
feel are needed in intelligence or command and control to 
further support this mission?
    General Eberhart. Yes, ma'am. In terms of the new 
procedures in effect, we have increased connectivity with the 
FAA, so in fact, as I said earlier, we are on a chat line with 
them 24 hours a day, 365 days a year, so when they see a 
problem we simultaneously see that problem.
    Second, up until this time we were looking out. We were 
looking external to the United States of America for the 
foreign threat, and aerospace warning, aerospace control were 
our missions. It was redefined on 11 September, because now 
aerospace warning and aerospace control means the unthinkable. 
It means looking inside the United States for this terrorist 
threat that developed at that time, and so now we are employing 
additional radars.
    These radars come in the form of Coast Guard airplanes, 
Navy airplanes, and additional AWACS, to include NATO AWACS. 
Five NATO AWACS are a part of our team now and are temporarily 
deployed to Tinker Air Force Base. We are also moving ground 
radars throughout the United States to fill areas where we did 
not have good internal coverage in terms of the military. We 
are also linking some of the FAA radars into our command and 
control sectors in our region and NORAD command posts to make 
sure we are seeing again what the FAA is seeing so we are able 
to increase our situational awareness and decrease greatly the 
reaction time to work the time and distance problem.
    Senator Carnahan. Thank you very much.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    General Eberhart, I am very interested in NORAD, and so I 
am particularly interested in how NORAD might interact with our 
various agencies, particularly the FAA. I appreciate the 
question that was asked by Senator Carnahan, but I am going to 
ask for a little more detail. On September 11, my understanding 
is we had aircraft at least up in the air when the second plane 
hit the Twin Towers, is that correct?
    General Eberhart. Yes, sir.
    Senator Allard. So what I am interested in knowing is, what 
was the process there, and then how was that followed up with 
the other aircraft that you identified that were coming or 
heading towards Washington, and how you responded, and how was 
the FAA interacting with NORAD in that whole situation, 
starting with that first plane you deployed heading toward New 
York City?
    General Eberhart. Yes, sir. The first flight I think was 
American Flight 11. The FAA, once they notified us, we issued a 
scramble order almost simultaneously to the first crash, that 
flight of two out of Otis Air Force Base, out of Cape Cod----
    Senator Allard. Let me understand this. So right at the 
time the first aircraft was hitting the Twin Towers, you are 
being notified by the FAA that you had another plane headed 
towards the towers?
    General Eberhart. They notified us of the first hijacking 
just about the time that airplane was hitting the tower, and at 
that time we issued a scramble order to the two F-15s out of 
Otis Air Force Base. We continued to send those airplanes 
toward New York City, because initially, as we worked with the 
FAA, we were not sure if that was the hijacked airplane.
    I hate to admit it, but I was sitting there hoping that 
someone had made a mistake, there had been an accident, that 
this was not a hijacked airplane, because there was confusion. 
We were told it was a light commuter airplane. It did not look 
like that was caused by a light commuter airplane, and so we 
were still trying to sort it out. We are moving the two F-15s, 
and we were continuing to move them. They were flying toward 
New York City. In fact, they were 8 minutes away from New York 
City when the second crash occured. We did not turn them 
around. We did not send them back.
    Senator Allard. They had not made a sighting of that 
airplane?
    General Eberhart. Again, the issue is time and distance. 
Once we told them to get airborne, it took them only 6 minutes. 
Talk about the professionalism and training of these 
individuals. Tragically, there was just too much distance 
between Otis and New York City to get there in time.
    Senator Allard. Now, did the FAA notify you that you had a 
second hijacked plane somewhere up there?
    General Eberhart. Yes, sir. During that time, we were 
notified. We will provide the exact time line for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. I am not interested in the exact time line 
as much as I am how the FAA reacted with NORAD during this time 
period.
    Then you had the other two planes, and then the FAA 
continued to notify NORAD that you had two other potential 
hijackings, these headed for Washington, is that correct?
    General Eberhart. Yes, sir. We were working the initial 
hijacking of the one, I think it was Flight 77 that crashed 
into the Pentagon. We launched the airplanes out of Langley Air 
Force Base as soon as the FAA notified us about a hijacking. At 
that time it took those airplanes, two F-16s again, 6 minutes 
to get airborne. They were approximately 13 minutes away from 
Washington, DC, when the tragic crash occurred.
    Now, the last flight was a little bit different. I think it 
was United Airlines Flight 93 in Pennsylvania. At that time we 
were trying to decide initially if that flight was going to 
continue west, and if there was some other target for that 
flight, was it Chicago, was it St. Louis, and what might we do 
to launch an aircraft to intercept it.
    Senator Allard. So the FAA knew before it deviated its 
flight pattern that it was hijacked?
    General Eberhart. What they really knew was, it was headed 
west, Sir. It dropped off their radar screen, and then they 
reacquired it. At that time it became obvious to us, we thought 
it was probably headed for Washington, DC, but maybe New York 
City. We elected at that time to keep the airplanes that were 
doing the Combat Air Patrol over Washington, DC, and New York 
City right where they were in case there was another airplane 
coming. Then our intent was to go out and meet that aircraft 
and destroy it if we needed to, if it entered either 
Washington, DC, or New York City air space.
    Senator Allard. My understanding is that NORAD has made 
some effort to get direct access to FAA radar data in the past. 
You have not had access to that? What is the status of that?
    General Eberhart. Yes, sir. Again, in the past we have had 
access to what we call the Joint Surveillance System, which is 
that system which rings the United States. It looks for the 
foreign threat. It looks for someone coming into our air space 
that is not authorized.
    We have not been charged, we have not been concerned with 
any aircraft that originate inside of our air space because we 
believed that, in fact, is an authorized aircraft on a flight 
plan and is authorized to be in the United States of America, 
so we have been looking out. We have had access to the Joint 
Surveillance System, but we have not taken all of the radars 
internal to the United States and imported those into our 
command and control centers.
    Back in the 1950s, we actually owned and controlled all of 
those radars in the United States Air Force, and since 1958, 
when we stood up the FAA, we have been moving those radars to 
the FAA. We have helped pay for them and purchase them, and we 
have actually moved manpower on the order of about 200 people 
over the years to the FAA to operate these radars, but we were 
looking out, and we used the radars that the FAA uses to look 
out. We both use those radars.
    But now, to answer your question, we have figured out a way 
to take these internal radars and net them into our command and 
control centers.
    Senator Allard. Well, I just want to thank you and your 
people for a tremendous effort, in light of totally unexpected 
circumstances, and I, for one, appreciate the readiness that 
was displayed. I think that when you think about getting that 
plane and taking off in 6 minutes, there had to be a lot of 
hustle there, and I recognize that, and we are searching for 
better ways in which we can even do a better job while 
recognizing that you did a superb job at the time. So I want to 
thank you and your people, General, for that.
    I see my time has expired.
    Chairman Levin. Thank you, Senator Allard.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman, and I appreciate 
your convening this hearing. This has been a day of very 
impactful and instructive testimony. I want to thank our 
witnesses here, too.
    This morning we had a subcommittee hearing chaired by 
Senator Landrieu, and with the involvement of the Ranking 
Member, Senator Roberts. There was mind-blowing testimony about 
the threats under the category of bioterrorism. I discovered 
then, others have known it before, about possible threats in 
the area of agricultural terrorism, chemical terrorism.
    Now, this afternoon, we are reviewing the acts of civilian 
airplane hijacking, turning them into, as you said, manned 
missiles. In between we had a Top Secret briefing from the 
Director of the FBI and the Director of the CIA. Since those 
were Top Secret, all I can say is that there were areas 
discussed there that, again, to a new Senator are revealing and 
mind-boggling.
    So I guess I want to say, following up on what Senator 
Allard said, the magnitude and the enormity and the complexity 
and the multidimensional nature of what we are now calling 
homeland defense, or homeland security, are staggering.
    It is one thing to come in with perfect hindsight, and I am 
not saying we should not do so to learn the lessons for the 
future, but we talk about a Dark Winter simulation. We have 
been in a Dark Fall in reality, and we are still in the midst 
of one right now with the anthrax situation, which is changing 
on a daily if not hourly basis, and may have other unfoldings 
that have already taken effect that we are just not aware of 
yet.
    So I think we have to take all of this both with respect 
and appreciation for all you are doing. While looking for those 
areas where we can improve, because we always can improve. But 
we always say we are preparing for the last war. What 
constitutes homeland defense we have learned through a $359 
million defense budget, and then we are in the midst of a 
legitimate debate about how much more, according to the 
national missile defense development, and lo and behold we have 
some very astute and very determined, to the point of self-
sacrifice, enemies who are looking for exactly what it is we 
are not focused on or we are not prepared for, and that is 
where they are going to strike next, at what we are not 
prepared for.
    We do not want to scare the American people. On the other 
hand, no one is complacent any more. How do we cope with all of 
this, and how do we do so without spending more money? I guess 
I go back to that, because we just passed a tax cut. We thought 
that was the right thing. People thought that was the right 
thing to do. With all respect, we thought we had a surplus, but 
now we find we have a diminishing surplus and we have these 
greater needs.
    We are told this morning our public health system is 
seriously inadequate to address those potential threats and 
those real threats now. How do we gear ourselves up across the 
board for all of this, much less coordinate it?
    Secretary White. Well, I think, Senator, we are geared up. 
We have a great deal of work to do. For example, the key to 
homeland security to me is the competence and capabilities of 
the first responders. There are 11 million first responders in 
this country--State police, emergency medical technicians, 
local hazardous material teams--and the question is, if you 
look at the threats that you are talking about, what are the 
gaps in the capabilities, and then how do we fill those gaps on 
either an interim basis with assets of the Department of 
Defense, Reserve component or active, and then on a long term 
basis how do we build the confidence of the first responders to 
fill in those gaps?
    We cannot take all the resources of the Department, because 
our worldwide challenges are not going to go away, and there is 
a concurrency to this effort between what we do in the homeland 
and what we are doing in CENTCOM or other regions of the world 
that all address the same set of forces.
    I do not think there is any way, with the increased 
operational tempo that we are currently facing, like the air 
cap that General Eberhart is directing, that you are going to 
be able to do this in the same resource ceilings we were 
talking about before 11 September, because the operational 
tempo is just significantly escalated, and that is our national 
challenge, as to how to come to grips with that.
    Senator Dayton. Do any of the others want to add to that?
    General Kernan. Sir, I would just echo what Secretary White 
said. We have some tremendous capability right now, and we have 
refocused it, everybody is energized, and we are looking to get 
the synergy that we need. Fusing efforts in the interagency 
arena, and a fusion of both domestic and international 
intelligence and information, and the ability to do the 
collaborative planning, is going to allow us to better predict 
what the threat is, and allow us to be much more proactive. We 
will have to look at reducing those seams and gaps that you 
talked about.
    We are assessing what command relationships make the best 
sense. I think we need to look at the authorities that Guard, 
Reserve, and Active components have, and who can work for whom, 
and under what conditions can you maximize the flexibility 
within the State.
    The key is the responsiveness of the first responders, as 
Secretary White said. The more prepared we are for them to be 
employed and engaged to deter, I think the better we are going 
to be able to protect our citizens.
    General Pace. Senator, I would simply add that part of a 
good defense is a good offense, and we have a tremendous 
country. It is an open society. We want to keep it an open 
society. There are many parts of it to defend. A good way to 
defend it is to keep the other guy off-balance by attacking him 
where he lives.
    Senator Dayton. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Levin. Thank you.
    Senator Hutchinson.
    Senator Hutchinson. Thank you, Mr. Chairman. We have had 
several members make reference to the very excellent hearing 
that the Emerging Threats and Capabilities Subcommittee under 
Chairwoman Landrieu conducted this morning. It was a pretty 
chilling presentation, at least in my mind, what we heard, and 
in that presentation Senator Nunn made the comment that 
smallpox was--he expressed it as being that which was the least 
likely to be used, but the most catastrophic if used as a 
threat to our population, then he went on to say that the 
Health and Human Services was moving very aggressively to find 
multiple sources of smallpox vaccine.
    Later in the hearing, the question was posed to the entire 
panel, if smallpox is the least likely weapon to be used, what 
is the most likely, and the answer was anthrax. Perhaps on a 
wider scale, a more sophisticated scale, but anthrax was the 
most likely bioterrorist threat that we faced.
    Hearing that, the question rose in my mind, and the 
question that I posed to the panel was, well, if the least 
likely is smallpox, and we are seeking multiple sources of 
access, multiple sources for smallpox vaccine, and the greatest 
threat, at least the greatest in the sense of likelihood of 
being used is anthrax, what is the logic behind us having one 
source for anthrax vaccine? What is the logic?
    Dr. O'Toole responded immediately by saying, it is not 
logical, nor is it defensible. I think she is exactly right, 
and it is a concern that I have had for a long time. My first 
question is, can the vaccine that is produced at the BioPort 
facility in Michigan, the anthrax vaccine, presumably, 
hopefully that it will be approved quickly by the FDA and that 
we can see production begin again.
    How can the civilian population access that? Will it be 
only for force protection? We are talking about homeland 
security. What kind of prospects are there that the production 
of anthrax vaccine could be available for protection of the 
general population should that be needed?
    Secretary White. Well, the anthrax vaccine, Senator, with a 
single source, was in a single source because the only people 
we felt necessary to protect with the vaccine were those people 
in the Department of Defense who would have an immediate 
concern with anthrax.
    Senator Hutchinson. Which obviously was a misguided 
strategy, since we do not have a vaccine for our troops today 
going into the arena of harm's way.
    Secretary White. Yes, given the events since 11 September, 
but I would say two things. I was in Houston last Friday, and 
met with the emergency health services people, and the doctor 
there said, if you are really worried about a biothreat to this 
country, get your flu shot this year, because 30,000 people a 
year die of the flu in this country.
    The Health and Human Services under Secretary Thompson is 
going to move anthrax vaccines and the business and production 
of it to a national program.
    Senator Hutchinson. If I might interrupt you, Secretary 
White, my understanding is, it is 36 months before any 
commercial firm will be able to produce anthrax vaccine, so 
even if they move very aggressively, for 36 months there is no 
protection, unless there is some means of accessing the DOD 
production.
    Secretary White. The principal treatment for anthrax today 
is antibiotics, and that depends upon early detection, but the 
strain that started here is 100 percent treatable with 
antibiotics.
    Senator Hutchinson. I do not mean to be argumentative, but 
I have been told there are strains of anthrax that are 
resistant to antibiotics. Is that accurate?
    Secretary White. I am not an expert, so I do not think I 
should offer an opinion. I think the point is, we need 
something far greater than the BioPort single source. I know 
that Secretary Thompson, in working with the FDA, is pushing to 
number 1, certify BioPort's production; and number 2, expand 
those that are in the business as rapidly as he can.
    Senator Hutchinson. Mr. Secretary, are there pathogens 
beyond anthrax and smallpox that our troops, our forces face as 
potential risk, potential dangers in the future?
    Secretary White. I would say yes.
    Senator Hutchinson. The Surgeon General of the United 
States has endorsed the idea of a GOCO, a Government-owned, 
contractor-operated facility because there are pathogens out 
there that will never be commercially feasible. Will the 
Department of Defense, working in conjunction with HHS, and 
working in conjunction with the Surgeon General, move 
expeditiously toward a GOCO?
    Secretary White. Absolutely. If the GOCO is the right way 
to produce it, with all the experts, then we would obviously 
support that. We are heavily involved in the research on this, 
at Frederick, at Fort Dietrich. We have a leading research 
laboratory there on biological terrorism threats, and we will 
be an active part of the solution.
    Senator Hutchinson. One of the suggestions Senator Nunn 
made was the hiring of Russian scientists, and it was a very 
constructive idea. My question is, after this amount of time, 
is it too late for those Russian scientists that worked in 
biological warfare, created a lot of the weapons that are 
unfortunately out there, for us to endorse that kind of a 
policy, where we try to take some of those that may be a 
potential threat and utilize them and their expertise in trying 
to fight these biological threats to our country?
    Secretary White. Well, that is a good question. We have an 
enormous research capability in this area already, both in the 
Army and the Center for Disease Control in Atlanta, and those 
two facilities work very closely together. I know on the Army 
side, and I am sure in Atlanta, they are looking to recruit 
talent in these highly specific areas, but as we sit on the 
ground today we think we have the finest technical base in the 
world to deal with these things.
    Senator Hutchinson. I do not think it is necessarily a 
reflection on our lack of talent, but trying to get that talent 
out of the potential of working for our enemies.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator Hutchinson.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Pace, since September 11, many operations have been 
increased, and there is no question that there has been a 
burden on the present Active Forces that we have, and so I am 
concerned about the structure and training and personnel.
    Do you believe, General Pace, that increased operations--
for example, increased air patrols over the United States' 
cities and the use of National Guard personnel at airports, do 
you think that they are likely to be maintained for a long 
period of time?
    General Pace. Senator, I am not sure what the definition of 
a long period of time is, but certainly it must be maintained 
until other forces are available. If it turns out to be a pure 
police function and a police force can be built to take over 
that function, then naturally we would turn it over. I do not 
know who else in the United States could possibly do that, the 
CAP that General Eberhart's people are doing, but I would like 
to take the opportunity to tell you how fortunate we all are to 
have such a robust capability in our National Guard and in our 
Reserves, and those folks are critical.
    Senator Akaka. I am glad to hear that, but let me ask you 
this, then. Do we have adequate force structure, training, and 
personnel to sustain these operations on the long-term basis?
    General Pace. Sir, it depends upon how many other things we 
embark on. Quite honestly, we may not have enough active force 
structure. It all depends on the coalition. There have been 
about 40 countries so far who have offered to assist us in many 
ways, some of them financial, others up to going into combat 
with us, so there are opportunities for our country to partner 
with our friends around the world to be able to share some of 
this burden, but as we go down this road, which is still very 
uncertain, we may very well need to change our force structure.
    Senator Akaka. General Pace, what, if any, is the impact of 
your Department's current activities regarding homeland defense 
on our readiness for other missions?
    General Pace. Sir, short term we have not had a major 
impact from the allocation of resources to homeland defense. 
One area, however, is in the area of the Airborne Warning and 
Control System (AWACS), early warning aircraft. In fact, that 
aircraft has been in such demand that our NATO friends have 
sent five of their AWACS type aircraft here to assist General 
Eberhart in his mission, so there are specific low density, 
high demand assets, primarily intelligence and air warning type 
assets that are in short supply and are being used more rapidly 
now than they were before.
    Senator Akaka. General Kernan, would you have a comment on 
that?
    General Kernan. Yes, sir. Unquestionably there are some 
significant training and readiness implications due to the 
crisis we find ourselves in today. A lot of it has to do with 
the force protection condition levels, for instance, that we 
maintain to protect our military installations. Increasing our 
force protection condition Charlie, will commit tens of 
thousands of our troops to just protecting our installations.
    As General Pace said, right now it has not had any 
readiness impact. A lot of what we are being asked to do in the 
way of homeland defense are collateral tasks to our primary 
warfighting missions, but obviously operations tempo has 
increased. We still rely heavily on the Guard and Reserve, so 
the force structure issue is one that needs to be very 
carefully studied.
    Senator Akaka. General Eberhart, you said in your testimony 
that NORAD forces are also focused on threats coming from 
within our own air space. Are these duties in addition to the 
prior focus on threats originally coming from external forces, 
and if so, how are you preparing to do both?
    General Eberhart. Yes, sir. They are in addition to the 
aerospace warning, and aerospace control focus we had in 
looking externally. We are preparing and training to do this 
through the means we have talked about earlier in terms of 
additional radars in the interior of the United States, 
different netting and connectivity between the FAA and other 
agencies and NORAD, and close cooperation with Pacific Command 
and with Joint Forces Command.
    In fact, on occasion we have had operational control or 
tactical control of Navy ships or Navy airplanes to work these 
kinds of problems, so we are looking at any and all ways as we 
fight this war on terrorism to use the resources available and 
use them as smartly as we possibly can.
    Senator Akaka. Thank you very much, General.
    Senator Reed. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    General Eberhart, a question that I would ask, and I think 
this has been stated before, but by what authority was it that 
your pilots had the authority to shoot down an aircraft? Where 
was that given, and what, legally, do you have to have before 
you can do that?
    General Eberhart. Sir, the authority was from the National 
Command Authorities. We never asked for that authority, and we 
never gave the pilot that authority because we did not see that 
situation. We did not see the necessity to do that, but the 
authority was from the National Command Authorities.
    Again, we have thought our way through this in exercises, 
and worked with our lawyers, and have decided over time that if 
we were convinced that the people on board that aircraft were 
going to die regardless, and if we allow that airplane to 
continue on, others are going to die, too, and we believe that 
that is persuasive--that is difficult. I cannot imagine a pilot 
living with that the rest of his life, but we have talked to 
all of them. They all say they are prepared to do this if they 
have to, and we know they are all hoping to God they never have 
to do it.
    Senator Sessions. But has there been an agreed-upon person 
or command authority that would approve that, or is it up to 
the pilot?
    General Eberhart. No, sir, it is well above the pilot. The 
National Command Authorities do not wish us to discuss that in 
open testimony.
    Senator Sessions. But you have clarified in your own mind 
that there is no doubt as to how that should be handled?
    General Eberhart. There is no doubt in the minds of our 
pilots and all of our intermediate commanders, right on up to 
the National Command Authorities.
    Senator Sessions. A question about posse comitatus and the 
involvement of the defense forces in homeland defense is a very 
troublesome issue. We had hearings several years ago under 
Nunn-Lugar and the Department of Defense willingly decided that 
they would want to give up that responsibility of training 
local police that was given them, and we agreed to that, and 
the Department of Justice assumed that responsibility.
    It seems to me that that is the right thing. Secretary 
White, we went through that before, that we want our military 
constantly ready at a moment's notice to do what it is 
committed and trained to do, and if we put too many domestic 
civilian training demands on them. But it does undermine your 
core function, does it not, in addition to the legal and 
historical reasons for minimizing military involvement in 
domestic law enforcement?
    Secretary White. Yes, Senator, it does, but at the same 
time, if we in the Quadrennial Defense Review have said that 
homeland security and homeland defense is the most important 
thing we do, it becomes a matter of balance.
    If we have deficiencies in first responders, and in 
coordination with Governor Ridge, we have to figure out a way 
to fill in those gaps between the States and local communities 
to provide the necessary defense, then we are going to have to 
make decisions about how to apportion resources and allocate 
them, because somebody has to do it.
    For example, we have biological and chemical units in our 
structure because we face those threats on the battlefield, not 
because there might be a biological attack in New York City. As 
we review this whole business of homeland security, we are 
going to have to revisit those questions of the appropriateness 
of the force structure to a balanced capability between what we 
do in homeland security and our traditional focus 
internationally on the threats that face us and make some 
decisions about priorities.
    Senator Sessions. I think that is exactly right. I guess my 
concern would be that we do not somehow look on the Department 
of Defense but on the base force within the community, but it 
would be a response force called on in an emergency. We need to 
know, I think, for example, that we have certain chemical and 
biological teams that do not need to be duplicated elsewhere if 
yours are available to be called on. Is that what Mr. Ridge is 
going to be working to do, to decide what the needs are and 
what the gaps are and what the duplications are, and try to 
develop a comprehensive program that will best cover our 
Nation?
    Secretary White. I think that is precisely the challenge, 
and to me the cornerstone is to begin by looking at the 11 
million first responders in this country, in State and local 
organizations. The question is, what are the gaps, and how do 
we fill in the gaps, and what do we add to them? Until we can 
add it, what do we do in the interim? That to me is the essence 
of Governor Ridge's challenge to sort out, and we aim to help 
him do that.
    Senator Sessions. I know we have a first responder training 
center in Alabama for civil domestic preparedness, and surely 
anybody who saw what happened in New York knows it was the 
police and fire fighters that are first there. Now, the Guard 
or the Active Duty Force could be called on to supplement, and 
would be, but traditionally it is going to be--I mean, every 
time it will be, in the inferno--the people who are right on 
the scene to begin with.
    General Eberhart, I know General Pace has wrestled with 
this, and maybe I should ask him about it. In the Southern 
Command, the drug effort and the law enforcement part of that 
and the military mission is important. As a United States 
Attorney on the Gulf Coast for 12 years, I was aware that we 
were vulnerable to flights from South and Central America 
coming into the country pretty much undetected. Now, we are 
trying to protect our major cities. I will ask you, General 
Eberhart, do you think that we need any increased effort to 
maintain security over our southern border?
    General Eberhart. Sir, we are doing a radar coverage 
analysis as we speak, to include looking at aerostats. We have 
used them there for years. We are going to draw them down, but 
before we do that, we are going to make sure there is no value 
added with this new mission of homeland defense and looking to 
the interior. We are doing that analysis to see what is value 
added, and that should be available soon.
    Senator Sessions. I would add, the aerostats have not 
proven to be spectacularly successful in the drug effort, but 
maybe they will be in the effort for homeland defense.
    Senator Reed. Thank you, Senator Sessions.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Let me, if I 
could, submit for the record a fairly lengthy opening statement 
that would support many of the issues raised by Senator 
Cleland. I want to associate myself with remarks he made, and 
this statement goes into a lot more detail about that.
    [The prepared statement of Senator Landrieu follows:]

             Prepared Statement by Senator Mary L. Landrieu

    All government officials in this room, from Chairman Levin to 
Secretary White, to General Pace, to our professional and personal 
staffs, take an oath of office. That oath states, ``We shall protect 
and defend the Constitution of the United States from all enemies--
foreign and domestic.'' At this time, our Nation and our constitution 
require protection from enemies both foreign and domestic. The 
hijackings on September 11 and the subsequent anthrax attacks were 
infiltrated from within our borders. For the first time since the War 
of 1812, our United States have been attacked. Like then, our military 
should provide defenses to the Nation during this current time of war.
    As the Chairwoman of the Subcommittee on Emerging Threats and 
Capabilities, I appreciate, Mr. Chairman, that you have called this 
hearing. As one of 100 Senators and as one of millions of citizens, I 
am grateful we are exploring the role of the Department of Defense in 
homeland security. This morning, I chaired a subcommittee hearing to 
investigate our Nation's preparedness in response to a hypothetical 
smallpox outbreak. Quite frankly, the exercise, known as Dark Winter, 
which was conducted under the direction of this committee's former 
chairman, Sam Nunn, and the Center for Strategic and International 
Studies (CSIS), was quite sobering. Neither our Federal nor local 
officials, responding to the smallpox outbreak, worked effectively to 
curb and ameliorate the disaster. Moreover, in this exercise, the 
government had to resort to martial law to restore any semblance of 
order.
    Politicians, generals, and think tanks have long hypothesized over 
a possible terrorist threat to the United States of America. As of 
September 11, the days of hypothesizing are over. The United States 
faces, and will continue to face, real threats from biological, 
chemical, radiological, and possibly even nuclear weapons, that could 
devastate our critical infrastructure, our economy, our public health 
system, and cause massive casualties.
    Because our politicians, generals, and think tanks have been 
contemplating the possibility of an attack, our level of preparedness 
for such attacks has improved slightly in recent years. While I know 
that our emergency responders and public health officials have worked 
hard in response to the September 11 attacks and the anthrax scares, 
those events have also shown that we are still under-prepared. Our 
enemies are well aware that our citizens are scared, and that our 
government has yet to remedy the public's fear. Our enemies are not 
going to give us a time out or a reprieve to wait for the U.S. 
government, local governments, and public health officials to tighten 
up critical infrastructure, expand our vaccine programs, implement bio-
chem detection units, and otherwise improve our capabilities to respond 
to the next public emergency. They do not play by the rules.
    Regrettably, I think our Department of Defense is beholden to an 
old notion of traditions and rules that hamper the Department's ability 
to emerge as the leader it needs to be in Homeland Defense. For 
generations, the Department has thought that wars would be fought on 
other continents, and not on our soil. Under the doctrine of Posse 
Comitatus, which dates back to the Revolutionary War, the U.S. was not 
to maintain standing armies for any constabular purposes within the 
United States. Our soldiers were not to engage in domestic defense or 
activities generally associated with law enforcement. The F.B.I., local 
police forces, and the National Guard were created to undertake 
domestic defense. I recognize the spirit from which Posse Comitatus 
grew, and I am a strong proponent of federalism. However, our 50 States 
have been attacked, and we will only further endanger our citizenry if 
the Department of Defense is withheld from taking action when American 
soil is under attack. Posse Comitatus does not forbid the use of troops 
to quell riots and civil disturbances, and it should not pose a barrier 
when our Nation is under attack from its enemies. Notions that the 
Department of Defense cannot actively participate in Homeland Defense 
are antiquated, and they jeopardize our democracy.
    The Department of Defense has long prepared its uniformed men and 
women for the dangers of a non-conventional attack stemming from the 
use of weapons of mass destruction (WMD). These men and women best know 
how to respond to the dangers that presently face the United States at 
home. Moreover, the Department of Defense has dedicated teams of 
scientists to create a wide array of counter-measures and defenses to a 
WMD attack. Furthermore, they have created state-of-the-art WMD 
detection units for troops in the field that our Federal and local 
officials certainly need to protect the Nation. Our military has also 
been better trained to respond to the likelihood of a WMD attack than 
our civilian officials. We cannot afford to have the best department 
suited for response, evaluation, containment, civilian security, and 
defense on the sidelines because of its reluctance or beliefs in old 
theories of states' rights that should not apply when America is under 
attack.
    Currently, over 40 Federal agencies and countless state and local 
agencies have responded to the September 11 attacks and the anthrax 
scares. Again, those brave men and women who have responded are to be 
lauded. However, there have been dents in the armor, as evidenced by 
the deaths of the postal workers in Washington, DC. What the American 
people are looking for is a solidifying force to restore confidence, 
and I believe that DOD can best provide that stability and confidence. 
I am hopeful the Department of Defense is willing to undergo a paradigm 
shift and take an active role, if not a primary role, in homeland 
defense. We must not forget, after all, that the Pentagon was one of 
the sites attacked on September 11.
    The Quadrennial Defense Review, which was released on September 30, 
2001, does not provide the framework it should as to how our military 
will deal with the asymmetrical type of war that will dominate the 
beginning of the 21st century. The tragedies of September 11 are 
mentioned by the QDR as part of DOD's military planning, but DOD merely 
papers over the problems posed by September 11.
    At least the QDR states, ``Defending the Nation from attack is the 
foundation of strategy.'' The QDR recognizes that the real chance of 
another domestic attack has increased dramatically since September 11, 
2001, and states ``. . . the defense strategy restores the emphasis 
once placed on defending the United States and its land. . .''
    Nevertheless, the QDR raises concerns that the Department of 
Defense will not commit itself to an active role in homeland defense. I 
recognize the Office of Homeland Security should oversee and coordinate 
a national strategy to safeguard the United States against terrorist 
attacks and respond to them. Again, however, DOD should not be so 
willing to cede over its expertise in crisis management and response, 
and by doing so, only take merely a supplemental role in Homeland 
Defense. The QDR makes clear that local police and fire officials 
should continue to serve as the first responders to future attacks, and 
that the DOD does not wish to give such a duty to the military. 
However, it seems evident that the military possesses both the human 
and the scientific assets to best assess the aftermath of an attack, 
restore calm, and provide further protection to the area affected in 
the case of secondary attacks by an enemy.
    I am hopeful that, today, we can alleviate much of DOD's misgivings 
about any active participation in Homeland Defense. Of course, DOD will 
have to change its force structure and organization to fight the new 
type of war that so affects our Nation. Frankly, I am encouraged by the 
possibility of such changes because it will signal an end to planning 
and organizing based on the obsolete notions of the Cold War. 
Furthermore, it is not my intention for military to undertake this task 
without the means to do so.
    Congress must and will provide DOD the funds to meet the demands of 
the war we currently face at home. There is a war to fight on the home 
front, and Congress will ensure that our military is funded to fight 
that fight. DOD's role in Homeland Defense will not be an unfunded 
mandate. We need our Nation's best and brightest at this urgent time, 
and our men and women in uniform are the best and the brightest.
    Once again, Mr. Chairman, I am thankful you scheduled this hearing 
today, and I hope we all understand that our military is crucial to 
Homeland Defense.

    Senator Landrieu. Just a comment, and then I have three 
questions, if I could. One, it was said here on the record by 
one of the panelists, and I thank you all for the excellent 
work that you are doing, but we talked about being careful 
about expanding the role of DOD in light of this sort of 
domestic and homeland security. I know there are resource 
issues and all sorts of things we have to address, and they are 
legitimate, but I want to get back, Mr. Secretary, to what you 
said, and to try to affirm that it is the original role of the 
Department of Defense, the principal role, the central role, 
the entire reason of being that the Department of Defense would 
protect the life and liberty and well-being of the people on 
the homeland, as well as people who have to temporarily travel 
off the homeland to go for whatever carries them away, business 
or commerce or other endeavors.
    But the central role of the Department of Defense is 
protection, and I think we are in a significant historic 
paradigm shift. I think one of the roles of this hearing is to 
help us focus on that new paradigm, and I for one am very happy 
to see in the Quadrennial Defense Review the words reemphasized 
about the primary role of the Department of Defense in 
protecting the homeland.
    We have had 6,000 innocent people killed. This is not a 
crime, this is an attack. This is not a crime scene. This is a 
battleground. 6,000 men, women, and children, innocent people 
have been murdered and killed by the hands of our enemies, 
using different weapons.
    It is an asymmetrical attack, and I think the faster we get 
clear about that, the better we will be able as a Government to 
respond appropriately and quickly to prevent the further loss 
of life and prevent the further deterioration of individuals' 
well-being, and prevent the economic downturn for this Nation 
that would have a dramatic effect not only on us but everybody 
in the world, and to support what the President says about the 
urgency of that.
    Now, I want to just refer us to something that is not new, 
because it was written in 350 B.C. by Sun Tzu. He said, ``know 
your enemy, know yourself, and you can fight 100 battles 
without disaster.'' I thank the chairman for calling this 
hearing, because it is not only about knowing our enemy, who he 
or she is, or where he or she is, or what it is, a State or a 
terrorist cell, and where they might be and what their 
motivations are, but a very important thing about what we are 
doing today is knowing ourselves. Who are we? What have we 
become? What are our departments, and what are our 
capabilities, and how are we organized?
    So along those lines, I just need to ask you, Secretary 
White, if I could, one of the ongoing difficulties I believe we 
face in this new era of symmetrical warfare which we are in, 
and getting fully engaged, precisely when are we under attack 
and when are we precisely at war?
    We have developed a system for what we call low intensity 
conflict. These actions are characterized by interventions 
around the world to defend democracy during the Cold War. They 
are fairly well-defined. We reached a hazy compromise under the 
War Powers Act, by no means perfect, but it was the best option 
that we had to reflect a changed world.
    After the Cold War, we switched gears to peacekeeping, and 
then the Pentagon has developed methodologies for what it calls 
operations other than war, meaning peacekeeping and 
humanitarian interventions. We are all familiar with this. It 
has worked pretty well, because through the course of the Cold 
War it was developed. There are expected protocols that have 
been established, here and through the international community, 
but I think we find ourselves in this new war without a 
paradigm similar to the ones that we are familiar with. The 
Pentagon does not seem to know how to treat non-State actors. 
It does not seem to know what its proactive role is in 
defending the continental U.S. That is what we are debating.
    My question is, can you describe for me a scenario in which 
a non-State actor would take actions within the United States 
and which you would anticipate would put the Pentagon on a war 
footing? Let me be clear. Could you describe for me a scenario 
in which a non-State actor would take actions within the United 
States and which you anticipate would put the Pentagon on a war 
footing?
    Secretary White. Senator, I think we are on a war footing 
right now. I think we have just observed a war-like act. As the 
President clearly said, we are at war with international 
terrorism. If you look at what we are doing inside the 
Department, we are on a wartime footing right now. We had 174 
people killed in our building, and so we thoroughly understand 
that we are at war, and the gentlemen on my right or left I 
think understand that, and we are prosecuting that war both 
domestically and internationally to the full measure of our 
ability.
    Domestically, as we have said earlier in the hearing, the 
Quadrennial Defense Review cites our traditional role to 
protect the homeland as the number one responsibility we have 
in the Department. I absolutely agree with your comments on 
that. We are at war right now, both domestically and 
internationally, and I think we have the resolve and will and 
support of the American people in that activity, and we are 
going to prosecute it until it has finished.
    Senator Landrieu. I want to agree with you and say I 
support that most strongly, and I am also one of the Members of 
the Senate that will try to provide the resources necessary to 
do that, because there is a leadership role that must be 
assumed, and the question about who assumes that leadership 
role I think is central to being able to wage an effective and 
appropriate battle for what we are experiencing right now. 
There are many issues that have to be resolved, but I think the 
people of the United States would welcome the military's 
leadership role, respecting the other roles that all the other 
Government agencies have to play when we are in fact in a new 
kind of war, an asymmetrical battle. We are attacked in 
different forms.
    I know I am out of time, but just as the planes were turned 
into missiles, we have now been attacked through the mail. The 
next attack could come, as Senator Sessions or Senator Roberts 
said, through the crop-duster. The next attack could come from 
some other place, and if we are relying on the 11 million first 
responders who are hard-working, underpaid, not getting paid 
for overtime, not trained the way the military department is, I 
think we may be relying on something that was not necessarily 
intended for the new paradigm we are facing, not to say they 
have not been fantastic and terrific.
    So I will save my other questions. My time is up, but I 
just think that the role of the military, I think I want to 
support you in that central mission for the military.
    Senator Reed. Thank you, Senator Landrieu.
    Senator Santorum.
    Senator Santorum. Thank you, Mr. Chairman.
    Mr. Secretary, I just want to maybe shift a little focus to 
some of the concerns that I have. When I think of Army, I think 
of Army beginning with R, and that is the word resources, and I 
have had big questions for a long time about the Army and its 
resources.
    Now you are here in front of us saying we have a new 
mission, a new responsibility, all these things I have to do 
now, and I keep coming back to the Army that is underfunded 
with the plan of 33\1/3\ capitalized, modernized units, and I 
am just wondering how this new mission is going to be a drag on 
resources. I believe it is absolutely essential for the Army to 
begin and finish the process of something this committee has 
advocated for quite sometime, which is the transformation of 
the Army.
    I understand and I support the designation of the Army as 
the leader of this homeland defense with respect to the 
military, but I have to tell you, I have some huge concerns, 
and I would like you to tell me how you are going to take what 
is already an underfunded Army to do an additional mission and 
still get to transformation.
    Secretary White. I think it is clear, just like the other 
services, there will be additional resources required for the 
additional op tempo that we find ourselves in.
    I was making cases all summer long in the Quadrennial 
Defense Review that, given the operational tempo of the Army at 
that point, with deployments to Bosnia and Kosovo and other 
places around the world, that we were hard-pressed, from a 
structure and resources point of view.
    If you just take the Guard side of it, we now have 6,000 
soldiers in airports across the country dealing with that 
challenge, so I think clearly, depending upon the duration of 
this activity, as the Vice Chairman has said, there are 
significant resources and structural implications to this level 
of operational tempo that we are addressing both in the 2002 
budget and the 2003 one that we are putting together as we 
speak.
    We must, however, sustain the transformation that the Chief 
of Staff laid out 2 years ago, and that you have supported in 
this committee, the transformation that makes us more agile, 
more strategically mobile than we have been in the past. In my 
opinion, it is tailor-made for the security environment we find 
in post 11 September, and so we have to sustain that 
transformation effort while we keep up with this increased 
operational tempo.
    Senator Santorum. I agree with you. My question, maybe, is 
more specific, and that is, what challenges do you face not 
just with the increased operational tempo, but the resources 
that operational tempo demands, and still have the resources to 
invest in the transformation, and what is the impact? Well, 
just give me that. Can you tell me how you believe you can 
allocate those resources?
    Secretary White. Before 11 September, the allocation was 
very clear. The allocation was to fully fund people, fully fund 
readiness of the structure as it existed then, and to support 
transformation both in the interim brigades and in the 
objective force due with the legacy force, and bandaging 
together our infrastructure and our installations, and those 
were the trades we made to make it work.
    Post 11 September, in our budget submits you have seen we 
have asked for more money for force projection, we have asked 
for more money for our intelligence resources, and the 
operational tempo that we are at will require more O&M money. 
We have made those requests, and we are, of course, in 
discussion with you right now as you go into conference.
    Senator Santorum. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Santorum.
    Mr. Secretary, you have testified today about the current 
plan for reorganization with respect to homeland defense. I 
understand that plan was developed at the highest echelons, and 
came down through the Pentagon. Could you give your personal 
views, based upon your extensive experience as a professional 
officer, as a business executive, as a thoughtful commentator? 
Is this reorganizational plan effective? Does it go too far? 
Does it go far enough?
    Secretary White. Do you mean in terms of what we are doing 
in the Department of Defense?
    Senator Reed. Or perhaps overall. Just your impressions 
would be very valuable, Mr. Secretary.
    Secretary White. My personal opinion is, number 1, as I 
said earlier, we need a focus at DOD level, most likely with a 
dedicated Under Secretary, and we need to collect all the bits 
and pieces from SOLIC and Policy and Health Affairs that have 
to do with homeland security, and we need to pull that all in 
one spot. The Secretary, I have made recommendations to him, 
and he is considering precisely how he wants to do that. I 
think that is number 1.
    Step number 2 is the operational planning that the joint 
commands are doing before we get the Unified Command Plan out 
so we can clearly define what our homeland security 
requirements are and figure out the apportioning of forces. 
Details are associated with that, and that is a big task, and 
ultimately it will mean changes to the Unified Command Plan, as 
the Vice Chairman has discussed.
    The third and perhaps the greatest step is the interagency 
aspects of this, which Governor Ridge will drive, and that gets 
down to practice, practice, practice, against the realistic 
threats we find ourselves fighting post 11 September. There are 
parts of this that we do very well, because we frequently 
exercise chemical spills and hazmat things that you find in the 
normal course, but we have an enormous challenge facing us in 
these new threats, and we have to train up on the interagency 
side, and I am confident, having spoken with Governor Ridge, 
that he will drive that process, and those are the things I 
think we need to do.
    Senator Reed. Well, thank you, Mr. Secretary. In fact, you 
have predicted my next question. The impression I have is that 
we have lots of good plans at every level, we have units that 
have been designed to implement some of these plans, but I am 
not quite sure we know what we have out there, because we have 
not exercised vigorously. We have not done the kind of command 
post exercise and operational exercises that will show, as you 
have said before, the gaps.
    Do you have now a vigorous schedule of exercises? I should 
also add that this has to extend not just through DOD, through 
Federal agencies. This has to go down to local police 
departments, local fire departments, the environmental managers 
in agencies and States. Are you thinking about those kinds of 
exercises, and do you have the resources to do them, Mr. 
Secretary?
    Secretary White. We have to, and I think everyone 
recognizes that, and everyone recognizes the key role the 
Governors will play in this, and State and local responders. In 
23 of our States the Adjutant General of the State is also the 
emergency services coordinator for the Governor. We will get to 
that, and we will train to do that, because we do not have any 
choice. We have to have the operational capability that will be 
developed by that exercise, and as a former military officer, 
you understand what I am talking about. If you do not train it 
and do not exercise it, you do not have the capability.
    Senator Reed. I could not concur more, and I do not want to 
belabor this point, but is the money there for these exercises? 
Are you actively planning? Will the schedule coordinate all the 
way down to the emergency management office in the State, and 
to the local fire departments and police departments?
    Secretary White. I do not think the planning is laid out in 
adequate detail at this point. I know that is a focus that 
Governor Ridge and his appointment brings to the Government, 
and we will actively support him.
    Senator Reed. Thank you, Mr. Secretary. One final point 
before recognizing Senator Warner for a second round.
    We recognize we are up against a very adroit adversary. 
They have struck us through our aviation system. One would 
assume that they would try to find an open door and knock on 
it, or just come through, which leads me to the issue I think 
could potentially be very vulnerable, and that is our maritime 
security, which the Department of Defense and Department of 
Transportation must play a key role in.
    Could you, Mr. Secretary, and your colleagues, comment on 
maritime security in terms of your efforts at coordination and 
organization in general?
    General Pace. Senator, if I could go at it in an 
unclassified way, and then perhaps in another forum address it 
more specifically, but for example, some ships that were 
scheduled to deploy overseas have not been deployed, to be able 
to stay here. Some that were overseas are being brought home. 
The cooperation between the Navy and the Coast Guard is 
tremendous, and they are working collectively in our major 
ports, on our coastlines to provide the best security they can 
with assets they have, and so from the maritime perspective I 
think the Navy and the Coast Guard are working very closely, 
and are reallocating resources to focus more on homeland.
    Senator Reed. Is this also a issue of the Unified Command, 
who is in charge with respect to Coast Guard, Navy, and civil 
authorities?
    General Pace. Unified Command Plan has a primary objective. 
The work that is going on now for changes has as a primary 
objective identifying a CINC responsible for homeland defense.
    Senator Reed. Thank you, General Pace, and if I may take 
this opportunity, there was some discussion earlier about the 
posse comitatus counterdrug efforts, and General Pace, you have 
a unique perspective, being a former USSOUTHCOM Commander.
    The understanding I have is that our participation in these 
operations supporting Colombia and other initiatives, that our 
legislation provides the Secretary of Defense the authority and 
the direction to ensure that members of the Army and Navy do 
not participate in law enforcement activities, so that there is 
not an active regulatory stricture against those law 
enforcement activities where DOD personnel are doing military 
things. Is that fair, or could you comment on that?
    General Pace. Sir, let me try, and you can tell me if I 
miss the mark.
    The statute does for routine daily activities prohibit your 
military from acting as a police force. There are also, 
however, emergency measures that the President can invoke which 
allows us to do the things we have been doing since 11 
September.
    Senator Reed. But again, and I think my question was 
slightly tortured, with respect to your operations in Colombia 
and elsewhere, you are performing a strictly military role. The 
regulations and the guidance you are giving the troops did not 
invite them to get involved in criminal justice activities.
    General Pace. That is correct, sir.
    Senator Reed. If there is no objection, at this point I 
would request to have the prepared statement of Senator 
Thurmond inserted into the record.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman.
    Mr. Chairman, thank you for calling this important hearing on the 
Department of Defense's role in homeland defense. Although the Nation 
is focused on the ongoing attacks against the terrorists groups in 
Afghanistan, we must prepare and posture our forces and government 
agencies for the defense of the U.S. homeland. This struggle, like the 
President's declared war against terrorism, will be long in duration 
and one that will test the perseverance of our people and democracy.
    Mr. Chairman, threats against our Nation are not new, however the 
events of the past month are serious challenges to our citizens and 
economy. Never before have our people been faced with the threat of 
chemical, biological, or radiological attacks. Nor has our economy 
faced the threat of an attack on the critical computer networks that 
tie together the domestic and international business community. We have 
to prepare to meet these threats and, more importantly, the potential 
aftermath of such attacks.
    Mr. Chairman, our panel of distinguished witnesses will have a 
critical role, but not the predominate role, in determining how we 
prepare the Nation for homeland defense. Governor Ridge has the 
challenge of effectively bringing together the efforts of all 
government agencies at the federal, state and local level. We must 
ensure that he has the authority and support in this vital effort to 
ensure the Nation is prepared. The Department of Defense's role should 
be supportive so it can focus on the traditional and non-traditional 
threats emanating from outside the United States.
    Although it is critical that we focus on the homeland defense, I 
have always advocated that the best defense is a good offense. In that 
regard, we must ensure that our military forces are in the highest 
state of readiness, are forward deployed, and have the capability to 
detect and strike the threat at its point of origin. I hope we will 
keep that focus in mind as we consider the role of the Department in 
homeland security.
    Thank you Mr. Chairman.

    Senator Reed. Senator Warner.
    Senator Warner. Secretary White, you referred to our 
distinguished acting chairman as a former military officer. He 
went to West Point, and we are very proud to have him on this 
committee. He certainly handles things very well. But I am just 
curious, who was senior at West Point, the Secretary or 
yourself?
    Senator Reed. The Secretary was senior, quite senior.
    Senator Warner. Secretary White and General Pace, we have 
had a lot of discussion here on posse comitatus, but there are 
some related statutes which I am informed by our staff have 
directives which inhibit such things as the sharing of 
intelligence between law enforcement and local military 
organizations, and maybe we had better take a look at that. I 
think what we did on the floor today, the Senate terrorism bill 
has gone part-way in alleviating that. I come back to our 
President, who has handled this thing with tremendous courage 
and I think with foresight and brilliance, who said we are all 
in this together, and we have to look at things that have been 
in place for so long, like posse comitatus, and maybe there are 
good reasons for the military to have intelligence that you do 
not want to share with law enforcement at one time in our 
history, but I think after this hearing you have heard an 
expression of a lot of our colleagues that we had better look 
at it.
    I am glad you touched on the maritime security issue, the 
port security, which of course is with the Coast Guard, but we 
need to coordinate with the Coast Guard if we are bringing 
heavy tankers in. Our Nation is so dependent on overseas 
petroleum, and if one of those tankers were blown up by a 
terrorist in a port it would have devastating effects. I would 
hope that would be examined also.
    Now, as we all fully understand, Secretary White and 
General Pace, our overseas combatant commanders--we refer to 
them as CINCs--establish uniform standards within their 
geographic areas for force protection and threat warning 
conditions. Who is responsible for establishing such standards 
and issuing such appropriate warning information to our bases 
within the United States, and we have obviously Air Force 
bases, naval bases, and Army bases, and it seems to me that 
should have a uniform examination. Now, you can take that for 
the record, but does anybody have anything for the moment on 
that?
    General Pace. Yes, sir. The Service Chiefs are the ones who 
set the force protection standards at the bases and the 
stations in the continental United States.
    Senator Warner. With all due respect, is the Chief of Staff 
of the Army looking at the same level of force protection for a 
base that is right next to the Norfolk Naval Base, and the 
Chief of Naval Operations responsible for that?
    General Pace. They are, sir, and in fact that was a 
discussion item in this week's tank session with all of the 
Joint Chiefs. We do collectively look at that to make sure we 
are on the same level, but your question for the record is what 
should we do in the future.
    [The information referred to follows:]

    Currently, the Secretaries of Military Departments, through Service 
Chiefs, set force protection standards at bases and the stations in the 
continental United States (as set out in DODD 20001.12 and DODI 
2000.16). In the future, this responsibility may go to a new ``Homeland 
Security CINC'' or fall in line with a national homeland security 
threat system, if one is developed. Any proposal on changing the 
current system will need to be properly vetted throughout the 
Department of Defense before implementation.

    Senator Warner. Lastly, we are all moving out as quickly as 
we can to solve these problems, and I think we had better take 
a look, Mr. Secretary, at the procurement regulations which 
this committee, over the 23 years I have been here, worked on 
many reforms. We have achieved, I think, some improvement, but 
right now if there is a small firm out here or a collection of 
individuals that is making a product and you need that product 
tomorrow morning, I would hate to see you encumbered with a 
long procurement process of bidding and the lowest bidding, 
best and final, and review the bids.
    We do not have time for all of that, and I indicated 
yesterday in our discussion with the President that I think we 
ought to look at a statute which reposes a wide margin of 
discretion in the Secretary of Defense and, indeed, the 
Secretaries of other departments and agencies, and Governor 
Ridge acknowledged he is going to look at this also, whereby 
for a period, let us say 2 years, and we would sunset it after 
2 years, but if the Department of the Army wants to get out 
here and buy a product, go to it, and let us get that product 
and bring it in and utilize it in this war on terrorism.
    We have had a good hearing, Mr. Chairman, and I thank you 
and all members of the committee.
    Senator Reed. Let me inquire, Senator Akaka, Senator 
Sessions, do you have additional questions?
    Senator Sessions. I would just like to make an observation. 
Having served as a United States Attorney during the early days 
of the drug wars, I saw the incredible difficulty of getting 
every agency that has a role to play in drugs working together 
in a harmonious way. I can understand the difficulties you are 
facing. The only thing I was concerned about was the 
suggestion, perhaps--and I do not think it was meant to be that 
way--that somehow the Department of Defense now might be 
involved and be responsible for investigating mail, or is going 
to be responsible for security at airports permanently, or 
going to have to take over for the Coast Guard and now guard 
the ports of America.
    We have this tremendous investment over the years in all of 
these agencies which have a good deal of expertise and 
equipment. They are trained specifically, the FBI is, to 
investigate cases. I know every local police officer and the 
things in their community does things that the Department of 
Defense does not have the ability to do, so what we have to do 
is figure out how to draw on the resources of the Department of 
Defense and make sure that they are readily available on call 
when needed, create an orderly process here in some way, and 
the problem, the challenge is a tremendous one, and it falls on 
Mr. Ridge primarily.
    I do not favor a major change in the roles we have, 
frankly. I just do not favor that. Yes, a murderer is a threat 
to the homeland, drug dealers are threats to the homeland, but 
I do not think we want to turn all of that over to the 
Department of Defense now, at a time when you are trying to 
transform and be prepared to fight wars around the world, so 
however we do that, Mr. Chairman, is going to be difficult, but 
a comprehensive plan is needed, and this committee is doing the 
right thing in having hearings on it.
    I just would say that we ought to recognize every 
additional duty given to the Department of Defense--the 6,000 
National Guardsmen that have been deployed, called up, and have 
to be trained and paid for that purpose--does drain your 
budget. It drains your readiness from other missions you are 
trying to do.
    I will submit some more questions for the record.
    Senator Reed. Thank you very much, Senator Sessions. If 
there are no further questions, the hearing is adjourned. Thank 
you, gentlemen.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin
                                WMD-CSTs

    1. Senator Levin. General Kernan and Secretary White, to date we 
have authorized 32 Weapons of Mass Destruction-Civil Support Teams 
(WMD-CSTs), but only 10 have been certified ready to conduct their 
mission by the Secretary of Defense. At the same time, their 
capabilities are limited to WMD detection. They do not conduct clean-
up. Instead, they reach back to other units who do so. Some proposals 
have recently surfaced to create new teams. Meanwhile, the Marine Corps 
and other services are expanding their response capabilities to include 
more clean-up and management. What is the correct way forward--should 
we create more teams or should we focus on improving the capabilities 
of the armed services across the board?
    General Kernan. Managing the consequences of a weapons of mass 
destruction incident is a complex task that will most likely demand a 
broad range of capabilities, exceeding those of any one unit. The 
capabilities of our state and local first responders remain the most 
important investment we can make. Supporting military capabilities 
should be unique or complementary in order to provide depth. The 
detection and assessment capabilities of the WMD-CSTs are critical to 
determining the scope of the problem and the type of follow on support 
needed for a particular incident. These teams immediately deploy to the 
incident site to assess an incident, advise civilian responders 
regarding appropriate actions and facilitate requests for assistance to 
expedite the arrival of follow-on personnel and assets to help save 
lives, prevent human suffering, and mitigate property damage.
    When demands exceed local and state capabilities, Federal assets 
can be employed. Requirements for additional Federal assets are broad 
in scope, likely exceeding the capabilities of any single organization 
and therefore will include a variety of military capabilities that are 
established principally to support warfighting abroad. Organizations 
with military unique capabilities should be limited in light of the 11 
million first responders and the 600 local and state hazardous 
materials teams in the United States. The WMD-CSTs are one such 
capability. The various proposals for establishing a WMD-CST in each 
U.S. state and U.S. territory are worthy of consideration.
    Secretary White. Careful analytical analysis during several 
Department reviews have concluded that the current 32 congressionally 
authorized WMD-CSTs adequately support our national requirement. The 
teams are federally funded and equipped to provide state Governors 
ready access to fully trained military response assets to use in 
preparing for and responding to WMD incidents as part of their state 
emergency management response capability. The CSTs are not considered 
to be part of the first responder community. Rather, they are designed 
to arrive within 12 hours after being requested by local authorities. 
The Department's placement of 32 teams ensures that a WMD incident 
anywhere within the U.S. can be supported within that response 
standard. Thus, establishing more than 32 teams would require 
substantial fiscal investment with little benefit, in terms of 
increased population coverage or expected response time.
    As you pointed out, the role of the CSTs is limited. There are many 
consequence management functions required in responding to a domestic 
WMD disaster. Most of these are performed by non-DOD entities. Local 
first responders do the most critical, time-sensitive functions. It is 
the Department's position that improving the training, equipping and 
manning of our first responder community is in the best interest of the 
American people.

    2. Senator Levin. General Kernan, about a month ago, the GAO issued 
a report on combating terrorism that was mandated by last year's 
National Defense Authorization Act. The report asserted that the WMD-
CSTs ``continue to experience problems with readiness, doctrine and 
roles, and deployment that undermine their usefulness in an actual 
terrorist incident.''
    What is your command doing to bring all of the teams up to a high, 
uniform standard of readiness?
    General Kernan. The WMD-CSTs are National Guard assets that are 
manned by their respective states, and trained and equipped by the 
National Guard Bureau. Joint Forces Command provides training and 
readiness oversight of the WMD-CSTs. We assume that responsibility once 
a WMD-CST receives Secretary of Defense certification. Training and 
readiness oversight includes guidance to the National Guard, comment on 
their programs, and coordination and review of readiness and 
mobilization plans. Therefore, under our training and readiness 
oversight responsibilities, we are working closely with the National 
Guard Bureau and the states where those teams reside to standardize 
their training, tactics, techniques and procedures. Joint Task Force-
Civil Support serves as our Command's executive agent in this critical 
effort. I would add that in recent visits to Fifth U.S. Army in San 
Antonio, Texas, and Fort Leonard Wood, Missouri, I had the opportunity 
to review the Army's training program that ensures that all WMD-CSTs 
receive standardized, high quality training. In fact, collectively both 
First and Fifth Army headquarters conduct a validation exercise for 
each WMD-CST prior to Secretary of Defense certification. The high 
standards and consistency of this program are impressive.

                               NORAD-FAA

    3. Senator Levin. General Eberhart, as I mentioned in the hearing, 
in order to get a complete account from you, I am resubmitting this 
question and adding some related questions regarding the sequence of 
events on September 11 relating to the aircraft that crashed into the 
Pentagon. According to the timeline I have seen:
    At 8:55 a.m. on September 11, American Airlines Flight 77 began 
turning east over Ohio, away from its intended course.
    At 9:10 a.m., Flight 77 was detected by FAA radar over West 
Virginia, heading east. This is after the two planes had struck the 
World Trade Center towers.
    At 9:25 a.m., the FAA notified NORAD that Flight 77 was headed 
toward Washington, DC.
    General Eberhart, is this the first notification that NORAD and DOD 
had that Flight 77 was probably being hijacked?
    General Eberhart. At 0924 EDT, NORAD's Northeast Air Defense Sector 
(NEADS) received the first notification that American Airlines Flight 
77 was possibly being hijacked. This was the first documented 
notification received by the Department of Defense.

    4. Senator Levin. General Eberhart, given what had happened in New 
York City, do you know why it took the FAA 15 minutes to notify NORAD 
that Flight 77 had probably been hijacked and was headed toward 
Washington, DC?
    General Eberhart. My understanding is that the FAA lost radar 
contact with American Airlines Flight 77 and momentarily regained 
contact at 0850. The FAA also began to receive calls from outside 
agencies with reports of a possible downed aircraft. Additionally, the 
loss of radio contact with the aircraft added to the confusion. In 
light of this, I believe the FAA was faced with conflicting information 
which hindered them from making an accurate assessment of the actual 
location of the aircraft.

    5. Senator Levin. General Eberhart, at 9:37 a.m., 27 minutes after 
Flight 77 was detected by FAA radar heading east over West Virginia and 
while the whole Nation was watching the devastation in New York City, 
it crashed into the Pentagon. What level of the DOD had the knowledge 
that Flight 77 was headed toward Washington at the time it crashed into 
the Pentagon?
    General Eberhart. The FAA notified the NEADS that American Airlines 
Flight 77 was headed towards Washington, DC. NEADS then passed this 
information to NORAD's Air Warning Center and Command Center in 
Cheyenne Mountain and to the Continental U.S. NORAD Region's Regional 
Air Operations Center. At 0925, the NMCC convened a Significant Event 
Conference and during that conference, at 0933, NORAD reported one more 
aircraft en route to Washington, DC.

    6. Senator Levin. General Eberhart, was there ever any 
consideration given, between the time the aircraft was detected heading 
toward Washington and the time of the crash, to evacuating the 
Pentagon?
    General Eberhart. The FAA notified the NEADS of the possible 
hijacking at 0924 EDT and F-16s from Langley AFB were airborne at 0930 
EDT. At 0925 EDT, the FAA notified NEADS that Flight 77 was headed 
toward Washington, DC. At that time, there was no way for the FAA or 
NORAD to determine what target within the Washington, DC area the 
terrorists on Flight 77 intended to strike. Because of this, NORAD did 
not consider issuing an evacuation notice to the Pentagon.

    7. Senator Levin. General Eberhart, to your knowledge who else did 
the FAA notify aside from NORAD?
    General Eberhart. After the FAA determined that American Airlines 
Flight 77 had been hijacked, they convened a hijack conference, which 
included representatives from the FBI, DEA, and CIA.

    8. Senator Levin. General Eberhart, what, if any, existing 
interagency plans were activated?
    General Eberhart. Prior to the attacks on 11 September, the FAA and 
NORAD established a Memorandum of Understanding to ensure 
accomplishment of the air defense mission. The assigned 
responsibilities and working relationships were fully executed during 
the timeframe mentioned above.

    9. Senator Levin. General Eberhart, who within DOD should NORAD 
notify in the event of a future attack of this nature?
    General Eberhart. Since the attacks on 11 September, NORAD has made 
major changes regarding how we respond to an air threat. We have 
established a new conference called the Domestic Threat Conference 
which is used to alert and inform command centers, senior authorities, 
and other agencies of a domestic event having the potential to threaten 
the United States, U.S. Forces, or national security and critical 
infrastructure protection interests. [DELETED] The Domestic Threat 
Conference provides the ability to quickly pass time critical 
information needed to react to a threat against North America.

    10. Senator Levin. General Eberhart, during the hearing you 
testified to the timeline of notifications from FAA to NORAD, and at 
one point stated ``we were told that it was a light commuter plane'' 
that hit the first World Trade Center tower. Who told NORAD that it was 
a light commuter plane?
    General Eberhart. On the morning of 11 September, NORAD rapidly 
received a vast amount of information concerning the attacks on New 
York City and the Pentagon. During this timeframe, we received 
conflicting reports on which aircraft were involved in the attacks and 
which aircraft were hijacked. As we were responding to the first 
hijacking, CNN reported that a commuter plane had hit the World Trade 
Center. NORAD soon learned that the aircraft that crashed into the 
World Trade Center was in fact the hijacked commercial airliner.

    11. Senator Levin. General Eberhart, relating to Flight 77 and 
Flight 93, what buildings or offices did NORAD consider notifying once 
you learned that Flights 77 and 93 had been hijacked?
    General Eberhart. The FAA informed NORAD that American Airlines 
Flight 77 was headed toward Washington, DC, but neither NORAD nor the 
FAA had any information on the terrorists' intended target. Concerning 
United Airlines Flight 93, NORAD did receive word that aircraft had a 
possible bomb on board; however, our records did not indicate the 
direction the flight was headed. Therefore, we did not consider 
notifying any offices or buildings.

    12. Senator Levin. General Eberhart, to your knowledge did the FAA 
notify the Pentagon that Flight 93 was hijacked?
    General Eberhart. The data/log entries received by NORAD from the 
FAA do not show a time or entry indicating the FAA specifically 
notified the Pentagon that United Airlines Flight 93 was hijacked.

    13. Senator Levin. General Eberhart, did NORAD notify the National 
Military Command Center that Flight 93 was hijacked?
    General Eberhart. NORAD did not notify the National Military 
Command Center (NMCC) that United Airlines Flight 93 was hijacked. In 
the event of a hijack, it is the FAA's responsibility to convene a 
``hijack conference,'' which includes the FBI, DEA, CIA, and the NMCC. 
Due to the rapidly evolving situation on 11 September, the FAA also 
made direct contact with NORAD's NEADS. 

    14. Senator Levin. Secretary White (reassigned to General 
Eberhart), what improvements have been made since September 11 to 
communications among NORAD, the FAA and the National Military Command 
Center? 
    General Eberhart. Since the attacks on 11 September, NORAD has 
created three new conferences to improve communications between NORAD, 
the Federal Aviation Administration, and the National Military Command 
Center (NMCC).
    The first new conference is the Noble Eagle Conference. This is a 
NORAD/FAA conference that allows for rapid investigation of air events 
which do not require the National Command Authority's (NCA) 
notification. This conference is convened to gather information on 
emergent air events that are unusual in nature, but do not present a 
threat to North America. [DELETED]
    The second conference now used by [DELETED] is the Domestic Event 
Conference. CINCNORAD uses the Domestic Event Conference to 
characterize and assess domestic warning indications for potential 
threat to North America and to inform agencies within the Department of 
Defense as well as other Federal agencies. Based upon the situation, 
the NMCC Deputy Director of Operations or CINCNORAD may recommend 
upgrading the conference to a Domestic Threat Conference.
    The Domestic Threat Conference is the third new conference used in 
the event of an air threat to North America. This conference also links 
[DELETED], and it is used to alert and inform command centers, senior 
authorities, and other agencies of a domestic event having the 
potential to threaten the United States, U.S. forces, or national 
security and critical infrastructure protection interests. The Domestic 
Threat Conference provides the ability to quickly pass time critical 
information needed to react to a threat to North America.
    Along with the newly established conferences, NORAD has sent 
military representatives to the FAA's Air Route Traffic Control Centers 
and the FAA has sent additional representatives to HQ NORAD and to 
CONR.

                          UNIFIED COMMAND PLAN

    15. Senator Levin. General Kernan, in the aftermath of September 11 
you have augmented the staff you have dedicated to homeland security, I 
understand as a stop-gap measure until the Secretary of Defense decides 
where he wants this mission to be permanently housed. In addition, the 
Joint Task Force-Civil Support, also under your command, has doubled 
its size to 160 people who are enhancing planning and sustaining the 
current 24-hour homeland security operations. Could this constitute the 
nucleus of a homeland security staff, if JFCOM inherited the mission?
    General Kernan. Our new 90-person homeland security directorate 
could serve as the nucleus of a homeland security staff. It was 
structured to be an interim Standing Joint Task Force Headquarters. Led 
by a two-star Army general, this directorate is charged with planning, 
organization and execution of U.S. Joint Forces Command's 
responsibilities for land and maritime homeland defense and military 
support to civil authorities. JTF-CS continues to fulfill its charter 
as a deployable command and control headquarters ready to respond today 
to support the lead Federal agency for consequence management in the 
event of an attack by weapons of mass destruction. The increase in 
manning to 164 personnel was initiated prior to 11 September and we are 
accelerating it. Achieved through assignment and augmentation, this 
increased manning ensures that JTF-CS can maintain a continuous 24-hour 
response. Furthermore, to enhance unity of effort, I have recently 
placed JTF-CS and JTF-6, our counterdrug task force, under the control 
of my Homeland Security Director.

    16. Senator Levin. General Kernan, do you think Joint Forces 
Command should take on the homeland security mission?
    General Kernan. U.S. Joint Forces Command is fulfilling its 
recently assigned responsibilities for land and maritime defense and 
military assistance to civil authorities. The Unified Command Plan 
establishes the missions and responsibilities of the individual 
combatant commanders. In light of the 11 September attacks, the Service 
Chiefs and combatant commanders are proposing changes to the Unified 
Command Plan and the Chairman, under his Title 10 responsibilities, 
will recommend changes to those authorities to the Secretary of 
Defense. Joint Forces Command is ready now to assume this mission if 
assigned by the Secretary of Defense.

                        INTERAGENCY COORDINATION

    17. Senator Levin. Secretary White, President Bush has appointed 
several individuals to oversee or coordinate some aspect of homeland 
security. This list of individuals includes: Governor Ridge, as head of 
the Office of Homeland Security; an NSC counterterrorism coordinator, 
General Wayne Downing; an NSC Cyberterrorism coordinator, Mr. Dick 
Clarke.
    As DOD's interim executive agent, how are you working with these 
various individuals?
    Secretary White. I have close and daily personal contact with 
Governor Ridge, General Downing, and Mr. Clarke on homeland security 
matters. There is a strong relationship developing between my staff and 
the staffs of the Office of Homeland Security and the National Security 
Council. The daily meetings and communications will continue to forge 
solid relationships so that we may work together to effectively address 
the many homeland security issues the country is facing.

    18. Senator Levin. Secretary White, how are you ensuring that the 
Homeland Security Office, the interagency and agency coordinators, and 
the Department are not working at cross-purposes?
    Secretary White. The Department of Defense fully participates in 
Governor Ridge's daily Homeland Security Council principal, deputy, or 
policy coordination committee meetings. Representatives from other 
agencies also attend these meetings. This ensures that the agencies are 
not at cross-purposes with each other or with Governor Ridge's office, 
but are working together towards a focused, common purpose.

    19. Senator Levin. Secretary White, in addition, how are those of 
you charged with defending U.S. territory against terrorist attacks 
coordinating with the officials in the NSC and State Department who are 
focused on global terrorist threats to the U.S.?
    Secretary White. Homeland defense is an integral part of Homeland 
Security. DOD's homeland defense activities and operations are 
coordinated with both the Office of Homeland Security and the National 
Security Council, and are often a topic of discussion in meetings 
chaired by these organizations. The State Department is represented at 
these meetings to provide a linkage to the global threat from 
terrorism.

                 JFCOM HOMELAND SECURITY CAMPAIGN PLAN

    20. Senator Levin. General Kernan, in your testimony you mention 
that your command is developing a Homeland Security campaign plan using 
``innovative organizational and operational approaches'' and that you 
are coordinating with other military, defense and Federal agencies. 
What innovative approaches are you using?
    General Kernan. In organizing our 90-person Homeland Security 
Directorate from within the command, we leveraged insights and concepts 
gained from our joint training and experimentation work. Specifically, 
our standing joint task force headquarters initiative, associated 
collaborative tools, and training initiatives provided the framework 
for developing this organization into a highly functional command and 
control headquarters to conduct Homeland Security. Our campaign 
development and coordination with other agencies is guided by both 
sound operational experience and joint experimentation insights derived 
from work on the Operational Net Assessment and Effects-Based 
Operations concepts.

    21. Senator Levin. General Kernan, how will your campaign plan 
relate to the existing DOD plans--the Chairman of the Joint Chiefs of 
Staff's CONPLAN 0300-00 and the DOD Directives on Military Support to 
Civil Authorities--as well as interagency plans, given the fact that 
homeland security involves all agencies, as well as local, state, and 
Federal governments? 
    General Kernan. Our campaign planning effort is nested within or 
informed by all of these existing plans and directives. We are working 
in concert with the appropriate agencies through the Joint Staff. 
Ultimately, the Joint Forces Command plan will complement a National 
Homeland Security strategy and plan.

                             NATIONAL GUARD

    22. Senator Levin. General Pace, the National Guard is presently 
functioning in a variety of ways with regard to homeland security in 
both its State and Federal status. Are you satisfied that procedures 
are in place to ensure that the use of the National Guard for homeland 
security does not interfere with their potential use as envisioned in 
the CINCs' warfighting plans?
    General Pace. The Joint Staff and the National Guard Bureau have 
been and will continue to track this issue. Currently, there are 
555,000 National Guard and Reserves in the force with 30,000 volunteers 
supporting Operation NOBLE EAGLE. This commitment does not have a major 
effect on our ability to execute current war plans. If further National 
Guard and Reserve Forces were called up for Homeland Security missions, 
or multiple warfighting plans were activated, we would certainly 
reassess the impact of assigning those forces to our war plans.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                HOMELAND SECURITY AND THE NATIONAL GUARD

    23. Senator Byrd. Secretary White, the Hart-Rudman Report, page 
XIV, states: ``We urge in particular that the National Guard be given 
homeland security as a primary mission, as the U.S. Constitution itself 
ordains.''
    Major General Allen Tackett, the National Guard Adjutant General 
for West Virginia, and other Adjutants General believe that homeland 
security should be one of the missions of the National Guard, but not 
the only mission. The Guard should still maintain its warfighting 
missions. Do you agree with the Hart-Rudman recommendation that 
homeland security should be a primary mission of the National Guard?
    Secretary White. Historically, the National Guard has been dual 
missioned for both its Federal warfighting role and its domestic 
response, state role. Many of the Guard's capabilities, including 
medical, command and control, and communications, are a direct result 
of preparations to perform their warfighting mission. Given the recent 
heightened interest in having the military execute domestic security 
missions, the National Guard is being relied upon to perform its 
domestic response role.
    The National Guard does play a primary role as a military force 
provider for disaster response within the United States. However, there 
are several reasons why homeland security is not considered to be their 
primary mission. First, as reservists, National Guardsmen are not 
available to perform domestic missions for extended periods of time. 
They are optimized to be recalled in the event of a major war or to 
perform short duration consequence management missions following a 
domestic disaster. Overall, most homeland security missions are likely 
to involve many long-term tasks that are unsuited to be performed by 
the National Guard.
    Likewise, many homeland security missions within the United States 
can be best performed by other Federal, state, and local elements.

    24. Senator Byrd. Secretary White, what changes in force structure 
and additional resources would the National Guard Bureau require in 
order to fulfill the broader mission of homeland security?
    Secretary White. There are still a lot of issues to be worked out 
in defining the missions that make up homeland security, assessing 
current capabilities, and assigning responsibilities. It is not yet 
clear how much of the overall national mission will fall under the 
purview of DOD, let alone the National Guard. Some temporary tasks 
currently being performed by DOD, such as airport security by the 
National Guard, will revert to another Federal agency for the long 
term.
    We anticipate that more changes will be required in resources than 
in force structure. The Department is still developing what those exact 
changes will be. The extent of changes required will depend on the 
exact number and types of missions assigned to the National Guard. 
Assuming that the Guard's role will be focused on crisis management 
response, few force structure changes will be required, as forces can 
be tailored to meet special missions and circumstances.

     25. Senator Byrd. Secretary White, what statutory changes might be 
required for the National Guard to conduct ongoing homeland security 
operations and also take on broader support to law enforcement and 
first responders?
    Secretary White. The National Guard may undertake homeland security 
missions in a State active duty status. In such a status, the National 
Guard is under the control of the State governor and is funded with 
State funds. All missions undertaken by the State National Guard in 
this status must comply with State law. Our country's traditional 
reliance on the National Guard is valued and the Federal strictures of 
our Constitution prescribe a combination of national and State 
structures to address national and State needs. Under our Federalist 
form of government there are many missions in the Homeland Security 
area that can and should be done by the States.
    The National Guard may undertake homeland security missions in a 
State active duty status. However, for those missions that are national 
in scope, such a State active duty status has a number of 
disadvantages: each State will perform the mission in a different way 
depending on State law; the funding levels for each State National 
Guard will be different; and the Federal Government has little say over 
how the mission is accomplished.
    A second status that is often considered for performing such 
homeland security missions is duty pursuant to Title 32, United States 
Code. Title 32 sets forth the authority under which National Guard 
personnel are trained to perform their warfighting mission and provides 
that such personnel remain under the control of the State governor but 
are supported with Federal appropriations. Although title 32 also 
authorizes the National Guard to undertake some specific missions that 
do not constitute training (such as counterdrug support or support to 
disadvantaged children), such missions are specifically authorized by 
statute. We believe that the use of National Guard personnel under 32 
U.S.C. Sec. 502(f) to undertake homeland security missions such as 
critical infrastructure protection and national border security, which 
constitute neither training nor a defense mission, is extremely 
problematic legally.
    It should be noted that National Guard members performing airport 
security duties are now serving under title 32 under a unique set of 
facts: airport security prior to September 11 was the responsibility of 
State and local governments; the President requested State assistance; 
the National Guard personnel performing the airport security mission 
obtain valuable training (preparation for peacekeeping); and Congress 
provided emergency funds to support State and local preparedness for 
mitigating and responding to the September 11 attacks and for 
increasing transportation security. These factors are not readily 
apparent for most routine homeland security missions and the use of the 
National Guard in a title 32 duty status to perform such homeland 
security duties is not appropriate.
    If it makes sense to perform homeland security duties with the 
National Guard in a title 32 status, it is possible to amend title 32 
to permit the use of the National Guard similar to the way the National 
Guard is now employed to undertake counterdrug duties under 32 U.S.C. 
Sec. 112. Such an amendment could provide for members of the National 
Guard in a full-time National Guard duty status to undertake specified 
homeland security missions as delineated by statute. National Guard 
personnel performing such duties would be under the control of the 
State governor but the costs of the National Guard program would be 
borne by the Federal Government.

    26. Senator Byrd. Secretary White, it is clear that the Guard has, 
and will continue to have, an important role in responding to a wide 
range of civil disturbances, from natural disasters to terrorist acts. 
These missions can be essential to our national security. The National 
Guard counterdrug program is a useful model for Federal support of the 
state missions of the National Guard.
    Will you support using defense dollars to increase the readiness of 
the National Guard for homeland security training and exercises?
    Secretary White. Yes. This is not different from current practices, 
since we keep our National Guard forces trained and ready for various 
types of employment; to include many missions that can be considered to 
be homeland security-like missions. National Guard WMD-CSTs have 
participated in inter-agency response exercises, such as TOPOFF. Since 
DOD is not normally the lead Federal agency in responding to domestic 
disasters, it does not take the lead in conducting domestic exercises. 
The Department will continue to support other lead Federal agencies in 
the conduct of such domestic exercises.

    27. Senator Byrd. Secretary White, do you believe that the type of 
homeland security threats we will face in the future require the use of 
the specialized skills that National Guard Special Forces units can 
provide, including knowledge of unconventional warfare, specialized 
skills in urban and rural environments, and medical knowledge to 
support first responders? 
    Secretary White. The National Guard does have impressive Special 
Forces units, which will continue to prove valuable in the future. 
However, legal restrictions on the use of military forces within the 
United States apply to almost all of the tasks applicable to these 
types of forces. Rest assured, that where they can be used most 
effectively, National Guard Special Forces units will be used.

    28. Senator Byrd. Secretary White, do you concur with the 
recommendation to the Senate Armed Services Committee from General 
Peter Pace, Commander of the U.S. Southern Command, that the illicit 
drugs flooding America should be considered a weapon of mass 
destruction? Should counterdrug efforts be included as a part of 
homeland security?
    Secretary White. The Department of Defense's role in counterdrug 
efforts is one of civil support. Additionally, we support U.S. and 
foreign law enforcement agencies' interdiction of illicit drugs before 
they reach the shores of the United States. Within that construct, the 
Department of Defense is the lead U.S. agency for detecting and 
monitoring aerial and maritime transit of illegal drugs. The new Office 
of Homeland Security focuses on the terrorist threat to our National 
security. The structure of DOD's Homeland Security program is under 
review, and it remains unclear whether the counterdrug mission will be 
included in that program.

    29. Senator Byrd. Secretary White, I have long supported the 
creation of an integrated homeland security training site at Camp 
Dawson, West Virginia, which includes the recently constructed Regional 
Training Center, and would include a planned Virtual Medical Campus 
located at West Virginia University. Combined, these institutions would 
provide the necessary education, training, and certification 
capabilities to prepare America's emergency first responders, including 
the medical community, for an incident involving a weapon of mass 
destruction or similar event. Camp Dawson incorporates the Integrated 
Special Operations Training Facility (ISOTF), a world-class training 
facility that would make Camp Dawson America's premiere training 
facility for emergency first responders. According to a National Guard 
Bureau feasibility study, dated March 2001, the ISOTF is a unique 
facility that will encompass special training complexes unlike any 
other in the world today. Some of the specific areas that will be able 
to be taught at the ISOTF include:
    Asymmetrical Warfare; 
    Counterterrorism (CT);
    Weapons of Mass Destruction (WMD);
    Law Enforcement Special Operations (SWAT);
    Civil Disturbance Operations;
    Military Operations on Urban Terrain (Basic and Specialized MOUT);
    Special Forces and Advanced Urban Combat (SFAUC);
    Hazardous Material (HAZ-MAT) Response and Handling;
    Fire Fighting;
    Emergency Medical Services (EMS) Response;
    High and Low Level Rescue;
    Disaster Preparedness;
    Aerial Delivery Operations (Personnel and Equipment);
    Cyber Terrorism;
    Information Warfare;
    Electronic Warfare;
    Maritime Terrorist Training;
    Emergency Services for Federal, State, and Local agencies; and
    Live fire capability.
    Please review the National Guard Bureau feasibility study on Camp 
Dawson and provide comments on how you believe the capabilities at Camp 
Dawson can be better integrated into our Nation's homeland security 
efforts. 
    Secretary White. The feasibility study summarizes both the current 
and planned training facilities at Camp Dawson, and notes that it 
provides ``an excellent opportunity for military and non-military 
institutional training.'' The number and variety of facilities at Camp 
Dawson position it well for use in homeland security training, which 
involves a wide variety of situations.
    Camp Dawson will be considered along with other military, Federal, 
and local training sites in a coordinated strategy incorporating 
national requirements and capabilities.

    30. Senator Byrd. Secretary White, I understand that certain 
military technologies such as those that identify chemical and 
biological agents are much more accurate than their commercial off-the-
shelf identification counterparts used by civilian HAZ-MAT 
organizations. An integrated National Guard and first responder 
training facility would allow for the education, training, and 
certification of emergency and first responders using the latest dual 
use military and civilian technologies to fight terrorism and 
counterdrug operations. Camp Dawson has the potential to be such an 
integrated facility.
    Please comment on the value of disseminating dual use military 
technologies and training to civilian emergency and first responders 
through facilities such as Camp Dawson.
    Secretary White. Senator Byrd, we agree with you that some military 
technologies could be very beneficial to civilian emergency and first 
responders. Demonstration of these technologies in integrated military-
civilian training and other venues is both a wise and valuable 
approach. As such, we can assure that as we, in conjunction with 
Governor Ridge's Office of Homeland Security and other Federal and 
State agencies, develop and implement training strategies and 
facilities, we will endeavor to capitalize on efficiencies and 
synergies that may be gained by using facilities such as Camp Dawson.

                    HOMELAND SECURITY AND BIOMETRICS

    31. Senator Byrd. Secretary White, in your new role as the Interim 
Department of Defense Executive Agent for Homeland Security, you have 
assumed the responsibility for bringing together the resources of the 
Department of Defense to coordinate with and assist the Director of the 
President's Office of Homeland Security, former Governor Tom Ridge, and 
other Federal, state, and local agencies. You are also the Department 
of Defense Executive Agent for Biometrics, a responsibility assumed by 
the Secretary of the Army last year.
    The Quadrennial Defense Review Report of September 30, 2001, lists 
biometrics as one of five priority ``emerging technologies'' of which 
the Department of Defense ``will vigorously pursue the development and 
exploitation.''
    What role in homeland security do you see for the Department of 
Defense Biometrics Program, especially the Interim Biometrics Fusion 
Center located in Bridgeport, West Virginia, within the Department of 
Defense and within the Executive Branch? What responsibilities will you 
be assigning the Biometrics Program in this new mission?
    Secretary White. In light of the events of September 11, the 
Biometrics Management Office refocused its singular direction from 
information assurance biometrics efforts to an expanded role including 
the use of biometrics applications for physical security.

        <bullet> This expanded approach will support greater knowledge 
        to the services for force protection and anti-terrorism 
        efforts.
        <bullet> The Biometrics Management Office and the interim DOD 
        Biometrics Fusion Center will further support homeland security 
        by maintaining a web site to assist DOD on biometrics issues. 
        The restricted access section of the DOD web site will contain 
        test and evaluation reports, biometrics product data, and 
        lessons learned.

    Considering heightened interest in biometrics devices and 
applications since September 11, we plan to use the Biometrics Fusion 
Center to analyze more commercial off-the-shelf (COTS) biometrics 
products. It is our intent for the Biometric Fusion Center located in 
Bridgeport, West Virginia, to become a Center of Excellence that can be 
utilized not just by DOD assets but can provide leadership, technical 
expertise, and capability to National Homeland Defense efforts at 
large.
    I have tasked the Army CIO to supervise the biometrics initiative. 
The DOD Biometrics Office will assist the CIO to carry out this 
responsibility. I further directed the DOD Biometrics Office to expand 
its singular direction from information assurance biometrics efforts to 
the use of biometrics for physical security. Additionally, I have 
tasked the DOD Biometrics Office to accelerate the full integration of 
biometrics into the DOD Common Access Card, which is used across DOD 
for network access, facilities access, and personal identification.

    32. Senator Byrd. Secretary White, what relationships exist or are 
being developed by the Department of Defense Biometrics Program to 
assist the Federal Aviation Administration, the Federal Bureau of 
Investigation, the Immigration and Naturalization Service, the U.S. 
Customs Service, and other Federal, state, and local agencies to 
improve security at airports and national points of entry, and to 
assist in their law enforcement efforts?
    Secretary White. I have tasked the Director, DOD Biometrics to meet 
regularly with senior officials at the Federal Aviation Administration, 
Federal Bureau of Investigation, Department of State, and Department of 
Justice to discuss common interests. Most recently, on October 18, he 
visited the FBI facility in Clarksburg, West Virginia and recently met 
with security officials in the Federal Aviation Administration. These 
events focused on identifying opportunities to incorporate biometrics 
technologies to enhance security at airports, national points of entry, 
and other key points of interest for Homeland Security. The DOD 
Biometrics Management Office continues to foster these relationships to 
leverage lessons learned and exchange technical information.

    33. Senator Byrd. Secretary White, biometrics offers the promise of 
increased physical security, computer and communications systems 
security, and information and identity assurance for military and key 
civilian facilities, such as airports and national points of entry. The 
largest biometrics repository in the world is the Federal Bureau of 
Investigation (FBI) fingerprint center in Clarksburg, West Virginia, 
and nearby is the Department of Defense Interim Biometrics Fusion 
Center. The FBI uses its computerized fingerprint repository to provide 
identity assurance for law enforcement personnel across the Nation and 
overseas. What plans do you have to establish a centralized repository 
for Department of Defense biometrics data?
    Secretary White. We have developed conceptual models for three 
databases including: Knowledgebase, Test and Evaluation, and 
Operations.

        <bullet> The Biometrics Knowledgebase will serve as the DOD's 
        source of information about biometric security, technology, 
        products, test and evaluation results, and lessons learned.
        <bullet> The Biometrics Test and Evaluation Database will serve 
        as a stand-alone database for use by the DOD Biometrics Fusion 
        Center for test and evaluation activities such as validating 
        COTS and government off-the-shelf (GOTS) biometrics 
        technologies, products, and applications.
        <bullet> The Biometrics Operations Database (Gold Standard). A 
        study is awaiting contract award to define the capabilities and 
        functions of the database.

    The current plan is for the centralized repository to be located at 
the Biometrics Fusion Center in Bridgeport, WV, and to have the 
Knowledgebase and Test and Evaluation databases initial operation 
capable by March 2002. The study for the concept of the Operations 
database is targeted to begin in March 2002. Following review of the 
study, we will construct milestones for implementation.

    Bottom Line.

        <bullet> We are working closely with the FBI Criminal Justice 
        Information Systems Division. The Biometrics Fusion Center is 
        located in Bridgeport, WV. The FBI activity is located in the 
        adjacent city, Clarksburg, WV.
        <bullet> We are working with the West Virginia National Guard 
        Home Land Security Facility, located at Camp Dawson, West 
        Virginia.
        <bullet> West Virginia University, College of Engineering and 
        Mineral Resources, Department of Computer Science and 
        Electrical Engineering is collaborating with DOD Biometrics 
        Office to develop the Information Assurance and Biometrics 
        Graduate Certificate Program, and Concepts in Biometric Systems 
        and Information Assurance Program.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                           ACQUISITION REFORM

    34. Senator Warner. Secretary White, a central goal of acquisition 
reform has been to leverage the commercial marketplace and attract 
``non-traditional'' commercial contractors to meet an increasing 
proportion of DOD's needs. By overcoming the barriers to these 
companies' participation in Federal contracts, DOD can tap into their 
expertise and gain innovative new solutions to address the challenges 
that confront our Nation. Despite the efforts of both the legislative 
and executive branches over the last decade, many commercial 
contractors still express frustration with the constraints of 
governmental contracting rules and regulations.
    In this time of crisis, and particularly with respect to how the 
biotechnology and the information technology industries can help our 
government wage its current battle against terrorism, do you see a need 
for additional acquisition reform legislation? If so, what specific 
legislative measures do you believe are needed?
    Secretary White. Section 836 of the Fiscal Year 2002 National 
Defense Authorization Act provides legislative authority that will help 
in the current battle against terrorism. Specifically, it provides that 
any procurement of biotechnology property or services needed to defend 
against terrorism or biological attack will be considered a commercial 
item, which facilitates its purchase under our regulations. It also 
increases the micropurchase threshold and simplified acquisition 
threshold for procurements needed to combat terrorism. Finally, 
paragraph (b) of section 836 requires the Department to submit a report 
to the Committees on Armed Services of the Senate and the House of 
Representatives containing the Secretary's recommendations for 
additional emergency procurement authority necessary to support 
operations to combat terrorism. The Department is in the process of 
identifying such additional legislative authority and will include them 
in the report.

    35-38. Senator Warner. [DELETED].
    Secretary White. [DELETED].
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                COMMANDER IN CHIEF FOR HOMELAND DEFENSE

    39. Senator Thurmond. Secretary White, last year Secretary Cohen 
said that when he first proposed the formation of a ``commander in 
chief for homeland defense'' the idea was controversial. ``Immediately 
there were questions being raised as to whether or not this would 
intrude upon constitutional prohibitions of getting our military 
involved in domestic affairs.'' I understand the Department is again 
considering establishing a CINC for Homeland Defense. How do you 
address the constitutional question on getting our military involved in 
domestic affairs?
    Secretary White. The Posse Comitatus Act (PCA/18 U.S.C. Sec. 1385) 
and DOD Directive 5525.5, which as a matter of Department of Defense 
policy extends the restrictions of the PCA to the Navy and the Marine 
Corps, have for many years ensured that the Armed Forces of the United 
States only engage in the direct enforcement of domestic criminal laws 
under circumstances that are clearly authorized by laws of the United 
States or the Constitution. The Department of Defense historically has 
been reluctant to accept law enforcement missions. There are a number 
of reasons for this reluctance:

    (1) a longstanding distaste on the part of the citizenry for the 
use of the military as a police force;
    (2) a lack of formal training on the part of most servicemembers to 
engage in domestic police activities involving functions such as 
arrest, execution of warrants, searches and seizures, and the 
protection and preservation of evidence;
    (3) an unwillingness within the military to permit servicemembers 
to undertake extensive law enforcement training because such training 
may well interfere with a servicemember's ability to train for our 
warfighting mission; and
    (4) a significant concern that the addition of a law enforcement 
mission to the many high demands already shouldered by the Armed Forces 
in defending the country will degenerate or destroy their ability to 
accomplish their primary mission.

    Over the years, section 1385 has been interpreted to preclude the 
use of the Army or the Air Force to execute the criminal laws of the 
Nation regardless of whether the military was employed as a posse 
comitatus or simply undertook law enforcement missions as part of its 
military duties. Notwithstanding the Department's reluctance to use the 
Armed Forces to engage in domestic law enforcement missions, the 
Department has on rare occasions provided such support to civil law 
enforcement agencies in emergency situations (e.g., support during 
riots and insurrections). The President has inherent constitutional 
authority, and longstanding statutory authorities (e.g., chapter 15 of 
title 10), to direct the use of the Armed Forces domestically in 
support of the national security interests of the Nation. In addition, 
following the September 11, 2001 terrorist attacks on the United 
States, Congress provided express statutory authority to the President 
under Senate Joint Resolution 23 (S.J. Res. 23, 107th Cong. (2001) 
(enacted)) to use military force to prevent further such attacks. 
Accordingly, although I understand that a review of the PCA is on-going 
within DOD, I do not believe that the PCA and the Department's 
implementing directives pose an obstacle to the Department when the 
President determines that the Armed Forces must be employed to protect 
the national security interests of the United States.

                          ASD HOMELAND DEFENSE

    40. Senator Thurmond. Secretary White, a recommendation of the 
United States Commission on National Security for the 21st century was 
that a new office of assistant secretary of defense for homeland 
security be created to oversee the various Department of Defense 
activities. Does the Department agree and plan to create this new 
position?
    Secretary White. The Secretary of Defense requested that Congress 
consider a new Under Secretary of Defense position for homeland 
security. In that context, the Secretary asked that I carefully 
consider how we might reorganize within the Department of Defense to 
oversee homeland security activities; this review is ongoing.

                  IMPACT ON MILITARY RESPONSIBILITIES

    41. Senator Thurmond. Secretary White, critics of DOD's involvement 
in responding to incidents of domestic terrorism argue that extensive 
military involvement in domestic matters will distract the DOD from its 
core missions and may make the DOD more like domestic civilian 
institutions. Consequently, the critics argue that this domestic 
involvement will degrade military professionalism. What are your views 
on this issue?
    Secretary White. The Department of Defense carefully analyzes all 
requests for support to civil authorities and other Federal agencies 
prior to the commitment of resources. These requests are analyzed based 
on four criteria: scope, duration, appropriateness (i.e., mission 
profile), and exit strategy. Those requests that satisfy this analysis 
are then weighed against other obligations and should not detract from 
DOD's ability to execute its core missions.
    With regard to military professionalism, our soldiers, sailors, 
airmen, and marines pride themselves in their professionalism and their 
commitment to service. Performance expectations for domestic support 
missions are no different than they are for any other mission and 
servicemen and women will execute their duties with pride and 
professionalism.

                       USE OF MILITARY PERSONNEL

    42. Senator Thurmond. Secretary White, Title 10 U.S.C. Section 382, 
Emergency Situations Involving Chemical or Biological Weapons of Mass 
Destruction and 18 U.S.C. Section 831, Prohibited Transactions 
Involving Nuclear Materials, authorize the Secretary of Defense to use 
of military personnel, equipment, and technical assistance in non-
hostile emergency situations that pose a serious threat to the United 
States and its interest. Are you aware of any discussions between the 
Secretary of Defense and the Attorney General that would create a 
foundation for the rapid enactment of these statutes?
    Secretary White. The Department of Defense and the Department of 
Justice have already established detailed protocols and procedures for 
these cases and have exercised them extensively.

                           WMD PROLIFERATION

    43. Senator Thurmond. Secretary White, current United States Anti-
Terrorism Policy states that the highest priority shall be given to 
preventing the acquisition of a WMD capability by terrorist groups. Do 
you believe the Comprehensive Threat Reduction programs and related DOE 
non-proliferation programs are effective tools for preventing the 
acquisition of WMD materials from the former Soviet Union?
    Secretary White. The CTR program is one element of a more extensive 
program designed to keep WMD from being acquired by rogue states and 
terrorist groups. Our efforts to prevent rogue states and terrorist 
groups from acquiring WMD must include:

        <bullet> Enhancing our ability and willingness to interdict 
        shipments of nuclear weapons related material to countries 
        supporting terrorists;
        <bullet> Assisting foreign government in their efforts to 
        control exports or transshipments of material from or through 
        their territory, and efforts to interdict WMD-related 
        shipments;
        <bullet> Increasing efforts through diplomatic and military 
        channels to enhance U.S. nonproliferation objectives; and
        <bullet> Focusing the efforts of assistance programs such as 
        the CTR program on those areas where we can obtain the highest 
        return.

    We continue to work to make the Department of Defense CTR program 
and DOE nonproliferation programs as effective as possible in assisting 
the FSU to prevent the proliferation of WMD materials in the face of 
efforts by terrorists, organized crime and rogue states to acquire 
these materials. The two departments are working with the states of the 
FSU to consolidate and secure or destroy nuclear, biological, and 
chemical agents.

                        HOMELAND DEFENSE MISSION

    44. Senator Thurmond. General Pace, last month's report on the QDR 
states: ``It is clear the U.S. forces, including the United States 
Coast Guard, require more effective means, methods, and organizations 
for performing these missions (homeland).'' How is the Department 
addressing these issues?
    General Pace. There will be a number of future changes that will 
have a direct effect on how our forces prepare, train and execute 
Homeland Security missions. In the near term, the Secretary of Defense 
has designated JFCOM and NORAD as the two primary CINCs responsible for 
Homeland Security. Long-term solutions will be incorporated into 
ongoing revisions to the UCP. All UCP revisions are approved by the 
President.

                      MILITARY HEALTH CARE SUPPORT

    45. Senator Thurmond. General Pace, in February of this year the 
head of the Joint Task Force for Civil Support, Major General Bruce M. 
Lawlor, agreed with the views being expressed that the National Guard 
and the Reserves could provide medical support in case of an attack, 
but he had some reservations. Specifically, he pointed out that the 
Army medical community ``has been downsized by as much as 40 percent,'' 
and ``what remains is not organized for domestic support. It is 
designed for combat operations.'' What is the state of military 
healthcare concerning a large-scale response to terrorist attacks?
    General Pace. The DOD brings to the table significant assets that 
can be called upon in a national crisis. These assets include 
specialized medical platforms that can be used to provide surveillance, 
detection, and field laboratory capabilities in support of operations 
in a WMD environment. However, the DOD lacks the capability to provide 
direct medical treatment and healthcare support for large-scale 
populations requiring a response to terrorist attacks employing 
chemical, biological, radiological, nuclear, or high-explosive (CBRNE) 
agents.
    The military healthcare system is neither equipped, task-organized, 
nor staffed to function in a role of primacy for these types of events 
either in the homeland defense scenario, or to support geographic 
Combatant Commanders in operations overseas. Successful mitigation of a 
WMD event will be predicated on interagency coordination and 
cooperation. The DOD healthcare system will only be part of the wider 
``system'' of assets that must be brought to bear in support of our 
national consequence management efforts.

                           ROLE IN MONITORING

    46. Senator Thurmond. General Pace, recently the Los Angeles Times 
ran a story that detailed some difficulties the Department faces 
regarding intelligence sharing. Specifically, the article noted that if 
the National Security Agency were monitoring the cell phone calls of a 
terrorist suspect, surveillance would be required to be stopped the 
moment the suspect reached U.S. soil. The Senate passed the Uniting and 
Strengthening America Act by a vote 96-1 that gives new tools to law 
enforcement to combat terrorism. Will the DOD benefit or, more 
specifically, be able to utilize the provisions articulated in this 
bill to provide asset and intelligence sharing with Federal law 
enforcement?
    General Pace. Yes, the Uniting and Strengthening America Act allows 
the DOD to receive more and better information on terrorism from U.S. 
law enforcement. For example, the provision to allow grand jury 
information to be shared among Federal officials, to include 
intelligence officers, is a strength that will improve DOD's ability to 
fight the global war on terrorism.

                         NATIONAL GUARD SUPPORT

    47. Senator Thurmond. General Kernan, according to the U.S. 
Commission on National Security for the 21st century, the National 
Guard and associated Guard Response Teams are ``vital to creating an 
effective national response ability'' for Homeland Defense. As such, 
the report recommends that the National Guard ``plan for rapid 
interstate support and reinforcement,'' and ``develop an overseas 
capability for international humanitarian assistance and disaster 
relief.'' Unfortunately, I have been informed by National Guard 
officials that there is no current mobilization plan to bring regional 
teams from other states to the site of multiple attacks. There is no 
plan to respond to multiple attacks within a large single urban area 
and due to the high operational tempo of the Air Force, ``there is no 
military airlift support available for domestic mission training 
scenarios.'' Is this accurate?
    General Kernan. U.S. Joint Forces Command and our Army and Air 
Force components are working with our assigned units, the Services, the 
Joint Staff, and the National Guard Bureau to improve responsiveness 
and coordination and formalize the process. In this regard, I have met 
with Lt. Gen. Russ Davis, Chief of the National Guard Bureau, on a 
number of occasions and with several state Adjutant Generals. One 
result of these meetings is a combined Joint Forces Command-National 
Guard Bureau initiated general officer steering committee, comprising 
all involved active, National Guard, and Reserve organizations, to 
further develop the collective way ahead.
    Airlift issues are the responsibility of U.S. Transportation 
Command. I would note that U.S. Transportation Command's support of our 
Homeland Security Ready Reaction Force exercises has been superb. In 
coordination with U.S. Transportation Command, C-130 aircraft have been 
allocated on a regional basis and placed on high alert to rapidly 
transport those Ready Reaction Forces throughout the United States.

                            MORTUARY SUPPORT

    48. Senator Thurmond. General Kernan, the head of the Joint Task 
Force for Civil Support, Major General Bruce M. Lawlor, addressed a 
major problem that he feels is a significant gap in the current 
organizational make-up of the national response plan--dealing with the 
grim problem of the victims. He stated that the Civil Support Teams 
``could not cope with collecting and burying possibly hundreds, if not 
thousands of dead bodies,'' not to mention the ``host of legal and 
religious issues'' involved in dealing with these victims and he warns 
that ``there is currently only one mortuary affairs company on active 
duty and one in Reserve.'' What steps is the Department taking to 
address this shortfall?
    General Kernan. The Weapons of Mass Destruction-Civil Support Teams 
are National Guard assets that are manned by their respective states, 
and trained and equipped by the National Guard Bureau. These teams 
immediately deploy to the incident site to assess an incident, advise 
civilian responders regarding appropriate actions, and facilitate 
requests for assistance to expedite the arrival of follow-on personnel 
and assets to help save lives, prevent human suffering, and mitigate 
property damage.
    The primary responsibility for collecting and disposition of bodies 
rests with the state and local coroner. If requested, military 
assistance to civil authorities could include mortuary affairs. Joint 
Forces Command has combatant command over three mortuary affairs units, 
the 54th Mortuary Affairs Company in the Active component and the 311th 
and 246th companies in the Reserve component. Both the 54th and 311th 
have supported post 11 September recovery operations at the Pentagon. 
Assets from the 246th augmented the 311th and the 246th is in the 
process of being re-manned. These units exist to support combat 
operations, but may be employed when a request for assistance is 
received from the lead Federal agency and approved by the Department of 
Defense. For example, in the aftermath of the Oklahoma City bombing, 
the 54th effectively assisted the medical examiner, the responsible 
local agency, in processing remains. In wartime, a fully manned 
mortuary affairs company can process up to 400 remains per day, though 
actual capacity will vary based on the situation. It is important to 
remember that there are many private, local, and state first responders 
who will do the bulk of this difficult but necessary work. We have 
certainly seen that in New York City since 11 September.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                DONOVAN TRANSPORTABLE DETONATION CHAMBER

    49. Senator Sessions. Secretary White, in your positions as 
Secretary of the Army and Interim Department of Defense Executive Agent 
for Homeland Security, have you considered the need for technology such 
as the Donovan Transportable Detonation Chamber (DTDC)?
    Secretary White. As the Interim Department of Defense Executive 
Agent for Homeland Security, I am continually looking for tools to 
respond to situations involving threats to homeland security. I am 
especially interested in technology developed in the private sector for 
it portends a great benefit to the U.S. taxpayer. Over the past several 
months, I have received a considerable amount of information on the 
Donovan Transportable Detonation Chamber and share your interest in 
pursuing its potential here in the United States.

    50. Senator Sessions. Secretary White, I have been told the DTDC is 
a promising tool to meet the need for explosive and chemical bomb 
destruction devices. I understand that this technology is awaiting Army 
validation. I request that you have the DTDC reviewed and its 
validation decision be made as soon as is possible. Once the review has 
been made have your staff report its findings to my office.
    Secretary White. The DTDC has been approved for the destruction of 
conventional munitions and other high-explosive devices. Additionally, 
the U.S. Army is providing technical assistance to the Royal Military 
Academy of Belgium in support of their efforts to evaluate the 
potential of the Donovan Chamber for destroying recovered chemical 
munitions. We are awaiting the results of the Phase I and Phase II 
tests in Belgium to determine if we should move forward here in the 
United States. Once our review has been completed, I will have my staff 
report their findings to your office.

    [Whereupon, at 4:42 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
